<html>
<title> - IMPROVING INTERAGENCY FOREST MANAGEMENT TO STRENGTHEN TRIBAL CAPABILITIES FOR RESPONDING TO AND PREVENTING WILDFIRES AND S. 3014, A BILL TO IMPROVE THE MANAGEMENT OF INDIAN FOREST LAND, AND FOR OTHER PURPOSES</title>
<body><pre>[Senate Hearing 114-361]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-361

     IMPROVING INTERAGENCY FOREST MANAGEMENT TO STRENGTHEN TRIBAL 
CAPABILITIES FOR RESPONDING TO AND PREVENTING WILDFIRES AND S. 3014, A 
                          BILL TO IMPROVE THE 
        MANAGEMENT OF INDIAN FOREST LAND, AND FOR OTHER PURPOSES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2016

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                     U.S. GOVERNMENT PUBLISHING OFFICE
21-508 PDF                  WASHINGTON : 2016                     

_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2641564966455355524e434a560845494b08">[email&#160;protected]</a>  










                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 8, 2016.....................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Cantwell....................................     5
Statement of Senator Daines......................................     4
Statement of Senator Heitkamp....................................     6
Statement of Senator Murkowski...................................    26
Statement of Senator Tester......................................     3

                               Witnesses

Black, Michael, Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior.....................................     6
    Prepared statement...........................................     8
Hubbard, James, Deputy Chief, State and Private Forestry, U.S. 
  Forest Service, U.S. Department of Agriculture.................    11
    Prepared statement...........................................    12
Lankford, Hon. Carole, Council Member, Confederated Salish and 
  Kootenai Tribes................................................    20
    Prepared statement...........................................    21
Nicholson, Hon. William, Board Member, Intertribal Timber 
  Council; Secretary, Colville Business Council, Confederated 
  Tribes of the Colville Reservation.............................    15
    Prepared statement...........................................    17

                                Appendix

Lake County Commissioners, prepared statement....................    41
Letters submitted for the record 


Randall, Dee, Forest Manager, San Carlos Apache Tribe, prepared 
  statement......................................................    37
Weiss, Lydia, Director of Government Relations for Lands, The 
  Wilderness Society, prepared statement.........................    40

 
                     IMPROVING INTERAGENCY FOREST 
                    MANAGEMENT TO STRENGTHEN TRIBAL 
                  CAPABILITIES FOR RESPONDING TO AND 
 PREVENTING WILDFIRES AND S. 3014, A BILL TO IMPROVE THE MANAGEMENT OF 
               INDIAN FOREST LAND, AND FOR OTHER PURPOSES

                              ----------                              


                        WEDNESDAY, JUNE 8, 2016


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:20 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order 
and ask the witnesses to please join us at the podium.
    As the 2016 wildfire season begins, we take this 
opportunity to examine current Federal laws and policies in 
place that strengthen tribal capabilities and capacity for 
responding to and preventing wildfires on tribal lands. 
According to the National Interagency Fire Center, last year 
approximately 4.8 million acres of Federal land managed by the 
Department of the Interior burned as a result of wildland 
fires. Of that amount, over a half-million acres of Bureau of 
Indian Affairs land burned due to wildfires.
    In my home State of Wyoming, over 3,000 acres of BIA land 
burned on the Wind River Reservation just last year. The BIA 
has a backlog of nearly 3.2 million acres of Indian forest land 
requiring forest health treatments. If solutions are not found 
to expedite this treatment, these acres will burn, costing 
hundreds of millions of dollars to suppress the fire and 
depriving tribes of the economic value of their forest assets.
    The Department of the Interior carries out the trust 
responsibilities to manage and protect Indian forests. The 
Department of Agriculture, specifically the U.S. Forest 
Service, is the primary neighbor of Indian lands, with over 
4,000 miles of shared boundaries.
    Over 18 million acres of forests are located on over 305 
Indian reservations in 24 States. These forests are vital to 
many Indian and rural communities. They provide a foundation 
for job creation, economic development, and cultural 
preservation. However, one fire can destroy all of that.
    For example, the summer of 2015 produced one of the largest 
wildfires on the Colville reservation in Washington State. 
According to the National Interagency Coordination Center, the 
North Star wildland fire on the Colville reservation was the 
fifth most expensive wildfire in the country. That fire 
consumed over 250,000 acres of forest and devastated more than 
14 percent of its commercial timber. Commercial timber revenues 
make up about $10 million of the approximately $45 million 
annual operating budget for the Confederated Tribes of the 
Colville Reservation.
    After that destructive fire season, tribal leaders began to 
question Federal firefighting priorities. One witness today, 
William Nicholson, Board Member of the Intertribal Timber 
Council, wrote to Interior Secretary Sally Jewel in December of 
2015 about his concern about new and proposed Interior 
Department policies for wildland fire management.
    He noted that the Intertribal Timber Council found the 
Department's Risk Based Wildland Fire Management Funding 
Allocation Model ``deeply flawed.'' The council further stated: 
``The failure to correct [this model] and its application would 
result in increased long term risk to tribal and other 
resources managed by the Department of the Interior.''
    The council further criticized Secretarial Order 3336, 
which they believe prioritizes Federal firefighting resources 
towards protecting sage grouse habitat over tribal and other 
previous priorities. The letter states: ``We are frankly 
bewildered that Secretarial Order 3336 concerning the Sage 
Grouse appears to take precedence over all other secretarial 
directives at the expense of all other species, ecosystems, and 
responsibilities.''
    In September of 2015, the Northwest Public Radio article, 
the Northwest liaison for the National Interagency Fire Center, 
stated: ``The single overriding suppression priority is the 
protection of human life. After that, we start looking at the 
protection of communities, infrastructure, property and any 
improvements that may be in place, and then we go on down to 
natural and cultural resources.''
    This means other factors such as roads and other structures 
are given higher priorities, which mean cultural resources are 
given a back seat. These examples raise serious concerns.
    The Secretary must ensure that the trust obligation to 
tribes is not infringed on by the very agencies entrusted to 
carry it out. More transparency in agency decision-making, in 
terms of where assets go in preventing and fighting wildfires, 
is needed so that tribal priorities are given their proper 
consideration.
    Senator Daines has introduced legislation which is 
supported by the Intertribal Timber Council, S. 3014, the 
Tribal Forestry Participation and Protection Act of 2016, which 
we will take up here today. This bill would increase 
interagency forest management between the tribes, the 
Departments of Agriculture and the Department of the Interior.
    This bill will also create a ten-year pilot program that 
authorizes the Secretaries of the Interior and Agriculture, at 
the request of an Indian tribe, in consultation with State and 
local governments, to treat Federal forest land as Indian 
forest land for the sole purpose of expediting forest health 
projects on Federal lands that have a direct connection to the 
tribe.
    This bill gives the Secretaries of Agriculture and the 
Interior authority to enter into 638 contracts with tribes to 
complete administrative functions under the Tribal Forest 
Protection Act of 2014, rather than requiring that the Federal 
Government do it for them.
    Before I turn to Senator Daines to have him further explain 
his bill, I would ask the Vice Chairman, Senator Tester, if he 
has an opening statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I do.
    Thank you, Mr. Chairman, for holding this hearing to 
discuss preventing and responding to wildfire. It is an issue 
that is a priority for many Native communities and it is 
certainly an issue that is important to a number of tribes in 
Montana.
    As the climate continues to change, as wildfire seasons are 
lasting longer, producing more fires and inflicting more damage 
on forest lands, the tribal forestlands including those in 
Montana have been severely impacted by wildfire over the last 
few years. With the ongoing drought in the West and 
increasingly warmer temperatures, wildfire management deserves 
more attention and ultimately more robust action. This begins 
with being proactive in addressing the problem.
    It requires improving interagency coordination to allow 
tribes and the Federal Government to more effectively address 
wildfire prevention and suppression. It also requires that we 
get serious about ensuring that tribal and Federal officials 
have the tools and funding needed to do their jobs.
    We cannot continue to treat wildfires different than any 
other natural disaster. Wildfire costs continue to increase, 
now taking up over half of the Forest Service budget. This is 
unacceptable and is why I co-sponsored the Wildfire Disaster 
Funding Act which would allow wildfires to be treated like 
other natural disasters. Doing this will ensure that the Forest 
Service can use its already limited resources toward crucial 
priorities other than fire suppression like wildfire prevention 
and maintaining healthy forests.
    We have a great responsibility to our tribal Nations to 
help preserve and protect Indian forestlands as they are 
important tribal trust assets. This also means that we cannot 
stand in the way of tribes using their trust assets in a way 
that creates economic development in their communities.
    This is a bipartisan responsibility and I commend Senator 
Daines for reaching out regarding his bill and incorporating 
some of my suggestions. I think the goals of this bill are 
good. I am hopeful we can address some remaining concerns 
related to the bill to make sure it is done right for the 
tribes.
    Tribal forests have immense commercial, recreational and 
cultural value that will help support and sustain tribal 
communities. I am committed to working to promote the health 
and vitality of Indian forestland.
    I want to thank you again, Mr. Chairman, for holding this 
hearing. I want to thank all the witnesses here today, 
especially Carole Lankford who traveled from the great State of 
Montana, some of the prettiest part of the world, to be here 
today.
    Carole, you have testified many times before this 
Committee. I want to thank you for your continued service to 
the Salish and Kootenai Tribes and Indian Country as whole. I 
look forward to hearing your testimony and all of our witnesses 
and having a productive conversation about this important 
issue.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Tester.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman. I want to thank 
Ranking Member Tester as well.
    Montana tribes know all too well how the health of nearby 
Federal lands impact tribal lands. For example, the 2007 Chippy 
Creek fire crossed State and Federal lands before spreading to 
the Flathead Indian Reservation where it burned over 33,000 
acres of tribal land. In fact, you can see the severity of this 
disaster in the powerful images next to the dais just off to my 
right.
    Despite the significant damage, because the fire hit the 
tribal land at a location where the tribes had undertaken a 
major fuels reduction effort, the fire spread much more slowly 
than it would have otherwise and the interagency fire crew was 
able to extinguish the fire quickly. This is one of the 
countless similar examples in Montana and across Indian Country 
where tribal lands suffer the consequences of the failure of 
the Federal Government to treat Federal forest lands before a 
catastrophe hits.
    More broadly, we can all agree that the status quo on 
Federal lands is unacceptable. Our forests are failing and we 
must visit new and innovative ways to improve forest health. 
That is why recently I introduced the Tribal Forestry 
Participation Protection Act which will help reduce the risk of 
wildfires on both Indian and Federal forest lands. It fosters 
greater cooperation between tribes and the Department of 
Agriculture and the Interior by broadening the application of 
existing tribal forest management practices on Federal lands.
    The bill also gives tribes more certainty and leadership in 
implementing Tribal Forest Protection Act projects on bordering 
and adjacent Federal lands.
    The Confederated Salish and Kootenai Tribes, the Crow 
Tribe, the Blackfeet Tribe and the Intertribal Timber Council 
have all sent me statements in support of the legislation. I 
ask they be submitted for the record.
    The Chairman. Without objection.
    Senator Daines. It is incredible how tribes will spread 
their resources thin and they are still better managers of 
their forests. I think it shows how important tribal 
sovereignty and is that tribes know best how to manage their 
own lands where their ancestors have lived for centuries. We 
must allow the flexibility for these tribes to continue to do 
so.
    Again, I want to thank Chairman Barrasso, Vice Chairman 
Tester and both the Committee's Majority and Minority staff for 
working with my office and me on this legislation. I look 
forward to today's testimony from the panel of witnesses.
    Speaking of the witnesses, I do want to welcome Carole 
Lankford. I want to thank you for being here to testify today.
    It is an honor to have known Carole since my early days as 
a member of the U.S. House. Carole has served as a member of 
the Confederated Salish and Kootenai Tribes Tribal Council 
since 1993 and is a seasoned witness before congressional 
committees having testified here multiple times.
    She has also served as Vice Chair of the CSKT Tribal 
Council, as the Billings area Indian Health Service delegate to 
the Tribal Self Governance Advisory Committee and as CSKT's 
delegate to the National Congress of American Indians. She also 
currently sits on the board of the Intertribal Timber Council.
    Carole, it is an honor to have you here. Thanks for making 
the long journey to Washington.
    The Chairman. Thank you, Senator Daines.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    I too would like to welcome the Honorable William Nicholson 
from the Colville Reservation for being here to testify today. 
He and I have had a chance to be at a couple of different 
forums discussing fire issues and new legislation that we 
desperately need in Washington.
    Last year, as the Chairman said, the Tunk Block and North 
Star wildfires burned over 252,000 acres on the Colville 
Reservation. I do not know, Mr. Chairman, if you actually had 
an economic value there but the number we have heard discussed 
many times in Washington State is they lost over $2 billion of 
forest timberland. Clearly, the impact on Indian Country and 
Washington from fires has been felt and felt greatly.
    While I commend the BIA for their work to help the Colville 
Tribe, I do not understand how they can meet trust obligations 
due to lack of resources moving forward. The BIA estimated that 
fire recovery costs in 2015 for tribes, not just Colville, 
would cost an additional $55 million, more than $47 million 
appropriated by the BIA forestry budget.
    Despite the tremendous need, this year, fiscal year 2017's 
request was only $200,000 more than this year's spending level. 
The BIA needs to double its forestry budget to meet the needs 
of tribes but is only asking for a small percentage increase. I 
definitely will have that as a question for the witnesses.
    According to a 2013 report conducted by the Independent 
Forest Assessment Team, forestry services at BIA are also 
woefully understaffed, especially when compared to other public 
and private programs. However, staffing is not the only issue. 
We do need to have next generation foresters. The aging 
workforce is a problem. As the Cobell settlement is 
implemented, lots of land allotment titles are being 
transferred and there is great staff pressure.
    How is this technical assistance needed to train the next 
generation of BIA foresters going to be met so that some of the 
trust and trust obligation can be met?
    Thank you for holding this hearing on this important 
subject. I think as a steward, the Colville Tribe has added a 
lot to the discussion of how to best respond to fire prevention 
and good practices for reducing risk.
    I certainly gain a lot of knowledge as we look at 
legislation in the Energy and Natural Resources Committee. I 
have gotten a lot of good ideas from the Colvilles on 
management strategies we should be pursuing.
    Again, thank you, Mr. Chairman, for holding this hearing. 
Representative Nicholson, thank you so much for being here.
    The Chairman. Thank you, Senator Cantwell.
    Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman.
    Boy, that could not have been better timing. Contrary to 
popular opinion, we do have some trees in North Dakota. The 
ones we have, we really would like to protect.
    Our challenge goes more to grass fire. I want to talk kind 
of broadly, Mr. Black, on fire protection and first responder 
protection in Indian Country in general.
    I will tell you I was shocked. I was just down at Fort 
Yates for a tribal visit. We were talking about the grass fire 
they had which was very threatening. It took out one of our 
communities and we had to do a lot of repair.
    It was very devastating. We had to displace many, many 
people, yet there was a fire response. However, if that fire 
started in Fort Yates on a structure, there is no first 
responder. Did you know that?
    The Chairman. We are mostly doing opening statements. They 
have not had a chance to testify yet.
    Senator Heitkamp. I am sorry. My apologies.
    The Chairman. That is quite all right.
    We will now hear from our witnesses. I would like to remind 
the witnesses that your full written testimony will be made a 
part of the official hearing record. Please try to keep your 
statements to five minutes so that we have plenty of time for 
questions.
    We will start with you, Mr. Black.

STATEMENT OF MICHAEL BLACK, DIRECTOR, BUREAU OF INDIAN AFFAIRS, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Black. Good afternoon, Chairman Barrasso, Vice Chairman 
Tester and members of the Committee.
    Thank you for the opportunity to provide testimony on 
behalf of the Department of Interior regarding efforts to 
improve interagency forest management and tribal capacity to 
protect reservation forests and woodlands from damaging 
wildfire.
    There are over 18 million acres of Indian forests in the 
U.S. held in trust by the Federal Government. These lands are 
located on 310 forested reservations located in 24 States; 6 
million acres are considered commercial timberlands, nearly 4 
million acres are commercial woodlands, and more than 8 million 
acres are a mixture of non-commercial timberlands and 
woodlands.
    Indian forests provide irreplaceable economic and cultural 
benefits to tribal members. In addition to providing a 
marketable forest product, tribal forests filter water, purify 
the air and sustain habitat for fish and wildlife.
    The Department's Office of Wildland Fire coordinates the 
Wildland Fire Program for tribes and other Federal partners to 
establish policies and budgets that are consistent with the 
goals of the National Cohesive Wildland Fire Management 
Strategy.
    Their mission is to coordinate the Department's 
comprehensive Wildland Fire Program while providing the 
strategic leadership and oversight of the Wildland Fire Program 
for the Nation as well as the tribes.
    Within the Department's Bureau of Indian Affairs, the 
Division of Forestry and Wildland Fire Management provides 
coordination, management, planning, oversight and monitoring 
for all activities related to the development and protection of 
trust forest resources.
    Within the BIA, the 2016 forestry budget is $54 million, 
reflecting a $6 million increase over the 2014 level. While the 
2016 non-suppression fire budget is approximately $109 million, 
which reflects an increase of $25 million over fiscal year 
2014, nearly all land management agencies share the common goal 
to promote activities which help to restore and maintain 
healthy, biologically productive landscapes.
    In recent years, we have seen a dramatic increase in the 
level of collaboration and coordination with multiple 
stakeholders, including State and private landowners. 
Initiatives such as the Inca Forest concept strive to create 
sustainable forest ecosystems through cross boundary, landscape 
scale collaborative management.
    In 2015, drought conditions persisted in Washington State 
and other parts of the Northwest where record deficiencies in 
winter precipitation combined with dry fuels and hot summer 
temperatures resulted in nearly 2 million burned acres. Nearly 
one-quarter of that burned acreage was located on tribal land 
with much of it containing valuable commercial timber, wildlife 
habitat, range land and important fish habitat.
    At the high point of the 2015 fire season, there were over 
32,000 interagency firefighters assigned to incidents across 
the country. The Northwest geographic area was the number one 
priority area in the Nation at the time, with over 5,600 
interagency firefighters working solely on tribal fires 
representing nearly 20 percent of the entire population of 
available firefighters.
    The Department continues to make fire management a priority 
through a set of initiatives. In 2015, the BIA announced the 
$10 million Reserve Treaty Rights Lands Initiative that 
provides funding for tribal priorities on lands where tribes 
maintain historical treaty rights adjacent to reservation 
boundaries.
    In addition, the department also appropriated $10 million 
in 2015 to fund the Resilient Landscape Pilot Program. Last 
month, Secretary Jewell announced another $10 million in 
funding in fiscal year 2016 to support a second year of 
resilient landscape project work.
    Since 2014, the BIA has been supporting the development of 
Native American college students and other youth in an effort 
to fill current and future workforce requirements in both 
forest and wildland fire management occupations. Through the 
Pathways hiring authority, the program, in partnership with the 
Salish and Kootenai Tribal College, provides tuition support, 
training and education to 45 American Indian and Alaska Native 
students.
    The program is designed to attract students enrolled in 
forestry and natural resource management and academic programs 
throughout the country with paid opportunities to work 
seasonally with the BIA and tribal forestry and fire programs 
while still in school.
    The BIA is also deploying a new Wildland Fire Sustainable 
Leadership Program by funding three wildland fire training 
crews. These crews will receive training in fire management and 
natural resource management by working with BIA and tribal 
forest and fire managers on projects ranging from fuels 
management, thinning, reforestation, prescribed fire, burned 
area rehab, as well as fire suppression.
    The Department will continue to support the guiding 
principles of Secretarial Order 3335 which reaffirms the 
Federal trust responsibility to federally-recognized Indian 
tribes and individual Indian beneficiaries.
    My written testimony will provide the Department's specific 
comments regarding S. 3014. The Department supports the goal of 
the bill but expresses some concerns such as text regarding 
shortened timeframes for Departmental approvals and description 
of geographical areas in Section 3(a).
    The Department looks forward to working with the Committee 
on this important bill.
    I am available to answer any questions the Committee may 
have. Thank you.
    [The prepared statement of Mr. Black follows:]

    Prepared Statement of Michael Black, Director, Bureau of Indian 
                Affairs, U.S. Department of the Interior
    Chairman Barrasso, Vice-Chairman Tester, and members of the 
Committee, my name is Mike Black and I am the Director for the Bureau 
of Indian Affairs (BIA) at the Department of the Interior (Department). 
Thank you for the opportunity to provide testimony before this 
Committee on the topic of ``Improving Interagency Forest Management to 
Strengthen Tribal Capabilities for Responding to and Preventing 
Wildfires, and S. 3014, a bill to Improve the Management of Indian 
Forest Land.'' The Department supports the goals of S. 3014 but has 
some concerns.
    There are over 18 million acres of Indian forests in the U.S. held 
in trust by the federal government. There are 310 forested Indian 
reservations located in 24 states. Six million acres are considered 
commercial timberlands, nearly four million acres are commercial 
woodlands, and more than eight million acres are a mixture of 
noncommercial timberlands and woodlands. Commercial forests on trust 
land are producing nearly one billion board feet of merchantable timber 
every year.
    The Office of Wildland Fire (OWF) coordinates the Department's 
wildland fire program with tribes and other partners to establish 
policies and budgets that are consistent and support the goals of the 
National Cohesive Wildland Fire Management Strategy and Secretarial 
Order 3336, Rangeland Fire Prevention, Management, and Restoration. OWF 
commits to, and provides, the strategic leadership and oversight to 
advance the three goals of the Cohesive Strategy, which are to: (1) 
restore and maintain fire-resilient landscapes; (2) create fire-adapted 
communities that will withstand the effects of a wildfire without the 
loss of life and/or property; and (3) safely and effectively respond to 
wildfire.
    The vision of OWF is to significantly reduce the risk to wildland 
firefighters, communities, and landscapes. OWF's mission is to 
coordinate the Department's wildland fire program and provide the 
strategic leadership and oversight that result in a safe, cohesive, 
efficient, and effective wildland fire program for the Nation, which 
includes tribal trust lands.
    Within the BIA, the Division of Forestry and Wildland Fire 
Management (DFWFM or Division) oversees the National Indian Forestry 
and Wildland Fire Management Program, which is a cooperative effort of 
the DFWFM, Intertribal Timber Council and individual Tribal governments 
on reservations. The Division is responsible for providing 
coordination, management, planning, oversight, and monitoring for all 
activities related to development and protection of trust forest 
resources, including the National Wildland Fire Program. The Division 
staff is headquartered in Washington, D.C.
    Fire is a normal occurrence that is beneficial to landscapes when 
managed properly, however, population growth near forests and 
rangelands, past management practices, and changing climate have 
dramatically increased fire risk and fire costs. In recent years, 
Interior and the USDA Forest Service (Forest Service) have relied on 
funding transfers from non-suppression programs to fund extraordinary 
fire costs that exceed budgeted amounts. This affects other important 
programs, including tribal forest management and fire risk reduction 
activities on tribal lands.
FY 2017 Budget
    Currently, the cost of suppression is planned in our budget process 
based on averaging historical costs over the preceding 10 years. The 
approach is not predictive, and does not assume that costs increase in 
future years.
    The FY 2017 President's budget proposes to establish a new 
framework for funding fire suppression operations in the Interior and 
the Forest Service. It provides stable funding for fire suppression, 
while minimizing the adverse impacts of fire transfers on the budgets 
of other fire and non-fire programs. Both Interior and the Forest 
Service support this proposal. Under this new framework, the FY 2017 
budget includes $276.3 million for fire suppression, which is 70 
percent of the 10 year suppression average spending. Increases proposed 
in the 2017 budget include:

  <bullet> $6.9 million in Preparedness to maintain or strengthen 
        initial and extended attack capacity:
        --$2.8 million to enhance the initial attack capability of 
        rural fire departments and rural fire protection associations;
        --$1.6 million to purchase replacement vehicles for the BIA 
        fire program, and,
        --$1.5 million to cover utility costs for the Alaska Fire 
        Service's leased space.

    The budget includes $20.4 million for Burned Area Rehabilitation, a 
$1.5 million increase to address greater post-fire rehabilitation needs 
caused by the 2015 and 2016 fire seasons, and $10.0 million for 
Facilities Construction and Deferred Maintenance, a $3.6 million 
increase to address the deferred maintenance backlog, and $30 million 
for the Wildland Fire Resilient Landscapes program.
    The 2017 budget proposal for fire is similar to other bi-partisan 
legislation considered in Congress. It allows for a balanced 
suppression and pro-active fuels management and restoration program 
with flexibility to accommodate peak fire seasons but not at the cost 
of other Interior missions, or by adding to the deficit.
Department Initiatives
    The Department continues to make fire management a priority through 
a set of initiatives. In 2015 the BIA announced the $10 million dollar 
Reserved Treaty Rights Lands (RTRL) initiative that provides funding 
for tribal priorities in High and Very High wildland fire risk areas 
outside of Interior lands. In addition, the Department provided an 
initial $10 million in funding for a pilot program, the Wildland Fire 
Resilient Landscapes Program. Approved proposals, known as Resilient 
Landscape Collaboratives, received funding to provide results within 
five to ten years. Two approved proposals will assist tribes. The Santa 
Clara Pueblo in New Mexico was awarded $800,000 to complete restoration 
of the natural fire regime on the mesa top lands, protecting ancient 
cliff dwellings, cultural sites, traditional food sources and watershed 
health. The Valles Caldera, also in New Mexico was awarded over $1 
million to improve the ability of ecosystems to recover from wildfires 
and other natural disturbance events, in order to sustain healthy 
forests and watersheds for future generations. The National Park 
Service is carrying out the work with partners that include the Jemez 
and Santa Clara Pueblos. Last month, Secretary Jewell announced another 
$10 million in funding for 2016 support a second year of work for these 
projects.
S. 3014
    S. 3014 would permit Indian tribes to propose and execute 
stewardship end result contracting to perform forest management 
activities on public land. Section 2 of S. 3014 amends the Tribal 
Forest Protection Act of 2004 to include a revised response timeline. 
The Department is concerned that the two year time limit contained 
within Section 2(C) is insufficient to ``complete all environmental 
reviews.'' From our past experience, requirements for consideration of 
effects on cultural resources (National Historic Preservation Act of 
1966) and threatened and endangered species (Endangered Species Act of 
1973) may take as long as three years or more to complete. For example, 
calling protocol for Mexican Spotted Owl requires two years and can be 
done only during particular seasons.
    Section 3(a) of S. 3014 requires the Secretary to ``approve or 
deny'' a request within 180 days and to ``consult with each State and 
unit of local government.'' We are concerned that the time requirement 
of 180 days is insufficient for meaningful consultation to occur. The 
Department seeks clarity from the bill's authors regarding the reason 
for the termination of authority under Section 3(10).
    Section 3 of S. 3014 provides for Pilot Authority for Restoration 
of Federal Forest Land by Indian Tribes. This section amends the Tribal 
Forest Protection Act (TFPA) to establish required time-frames for the 
Bureau of Land Management (BLM) consideration of, and response to, 
tribally-proposed projects on BLM-managed land bordering or adjacent to 
Indian trust land. The purpose of the TFPA is to protect the Indian 
trust resources from fire, disease, or other threat from BLM lands. 
Section 3 amends the National Indian Forest Resources Management Act to 
authorize the Secretary to treat certain Federal forest land as Indian 
forest land for purposes of planning and conducting forest management 
activities. Section 3 would apply to all BLM-managed forest lands, 
including Oregon and California (O&C) and Coos Bay Wagon Road lands. 
The BLM has not experienced a backlog of TFPA requests since enactment 
in 2004 and does not see the need for the required time-frames. 
Presently there is appropriated funding available for the BLM to apply 
active forest management treatments to federal lands adjoining tribal 
lands. Tribes have the opportunity to provide input on proposed 
vegetative treatments adjoining tribal lands to help BLM set priority 
areas for treatment.
    The Department notes one change between the original 2004 Tribal 
Forest Protection Act and Section 3(a) of S. 3014 that relates to the 
geographic scope of the project area. Under the original 2004 TFPA, a 
tribe may request to carry out projects on federal land that ``borders 
on or is adjacent to'' land managed by the BLM or the U.S. Forest 
Service, or where the Forest Service or BLM land presents a ``feature 
or circumstances unique to that Indian tribe (including treaty rights 
or biological, archaeological, historical, or cultural 
circumstances)''. In contrast, the bill amends the National Indian 
Forest Resources Management Act to expand the scope of federal lands 
eligible for tribal management to include federal forest land ceded to 
the United States, within the boundaries of a current or former 
reservation, or adjudicated by the Indian Claims Commission or a 
Federal court to be the tribal homeland of that Indian tribe. The 
amount of federal land that could be considered available under this 
new authority could significantly expand beyond those bordering or 
adjacent to federal lands. The expanded geographic scope may raise 
issues of conflict with existing uses and may require additional 
resources for the project area.
    Section 3(c)(7) in S. 3014, speaks only to consistency with 
applicable Forest Management Plans under the National Forest System, 
and does not mention consistency with BLM Resource Management Plans. 
The Department recommends amending S. 3014 to include consistency with 
BLM Resource Management Plans.
    Also, the Department is concerned with Section 5 of S. 3014 which 
provides that projects under this Act are to be funded from other 
amounts available to the Secretaries that are not otherwise obligated. 
It is unclear how Section 5 would impact the BLM's appropriated funding 
particularly when part of funding to manage the O&C lands is offset by 
timber sale receipts as provided in the 1937 O&C Act.
    Finally, federal forest land management is shared between USDA and 
Interior and the bill appears to create confusion over roles and 
responsibilities each agency has under the new authority. The 
Department recommends clarifying language be provided.
Conclusion
    Thank you for the opportunity to discuss the Department's 
activities on improving interagency forest management to strengthen our 
response to and prevention of wildfires, and to provide the 
Department's views on S. 3014. The Department continues to work with 
tribes to promote and increase tribes' capabilities to respond to and 
prevent wildfires and will continue to work closely with this Committee 
as well as our federal and state partners to address response and 
prevention. We also look forward to working with this Committee and the 
sponsors of S. 3014 to address the Department's concerns with S. 3014.
    I am available to answer any questions the Committee may have.

    The Chairman. Thank you, Mr. Black.
    Next, we will hear from James Hubbard, Deputy Chief, State 
and Private Forestry, U.S. Forest Service, U.S. Department of 
the Interior. Thanks so much for being with us, Mr. Hubbard.

  STATEMENT OF JAMES HUBBARD, DEPUTY CHIEF, STATE AND PRIVATE 
              FORESTRY, U.S. FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Hubbard. Thank you, Chairman Barrasso, Ranking Member 
Tester, and members of the Committee.
    I would like to begin by acknowledging tribal forest 
management. It is an example of the kind of good, active 
management it takes to sustain ecosystems and practice the kind 
of forestry we would like to do across all of our boundaries.
    The Anchor Forest Project did just that. It tried to take 
the tribal management across the boundaries with neighbors 
maintaining a local base of support and infrastructure for 
processing material and to work together to expand the scale 
and reach a larger landscape with that kind of management 
practice. S. 3014 captures some of the lessons learned from 
Anchor Forest and the Forest Service supports the approach in 
S. 3014.
    This also builds on the Tribal Forest Protection Act 
authorities. We currently have 18 active projects with the 
Forest Service and tribes furthering lessons such as the work 
we did with the Anchor Forests.
    Would we like to do more of this kind of work? Yes, we 
would. Do we still have wildfire threat in the West? We do. Can 
we expect actively managed forests to help us with our 
suppression efforts and our risk reduction? Yes.
    The conditions are likely to continue in the West that will 
promote the kind of fire activity and behavior that we have 
seen and the large fires we have seen, the forest conditions 
certainly, the climate conditions probably.
    The suppression of large fires is becoming a major issue 
for us, as you well know. The cost of those fires is a major 
issue. It does take away from the kind of management activity 
we would like to be doing to reduce those large fire risks.
    We need an alternative. There have been several proposed. 
We would like to continue to work toward that so that we can 
eventually get more of the right kind of management done 
instead of fighting the fires all the time.
    The Forest Service wants to be a good neighbor with tribes, 
with States, with private landowners, and with anyone who wants 
to work with us across that boundary to deal with active 
management, risk reduction and larger scale accomplishment of 
the objectives we want to achieve to have a resilient forest.
    We prioritize those kinds of boundary crossing activities. 
The Forest Service does hold back some of our hazardous fuels 
money to match up where those mutual objectives can be served. 
We want to work together on this legislation. We want to work 
together on dealing with the cost of wildfire and reducing the 
risk of wildfire.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hubbard follows:]

 Prepared Statement of James Hubbard, Deputy Chief, State and Private 
     Forestry, U.S. Forest Service, U.S. Department of Agriculture
Introduction
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to present the views of the U.S. Forest Service regarding 
efforts to strengthen tribal capacities to carry out projects on our 
nation's forests, and then to address S. 3014.
    Our National Forests and Grasslands provide a broad range of 
benefits, including biodiversity, recreation, clean air, forest 
products, erosion control, and clean water. Covering a third of the 
country's landmass, forests store and filter more than half of the 
nation's water supply and take in approximately 12 percent of the 
country's carbon emissions. Our mission of sustaining the health, 
diversity and productivity of our nation's forests and grasslands is 
critically important to maintaining these values and benefits. In 2015, 
we produced 2.873 billion board feet of timber. Our timber harvest has 
increased 18 percent since 2008. In 2015 we improved 19 watersheds, and 
treated 2.5 million acres of hazardous fuels. The agency is achieving 
these results through an emphasis on collaboration.
    The frequency and intensity of wildfire is increasing while the 
cost of controlling the spread of wildfire is rising, and the way we 
pay for fire suppression constrains the agency's capacity to realize 
additional gains through efficiencies and partnerships alone. The 
Forest Service faces two related but distinct challenges from the 
rising cost of fire suppression. First, wildland firefighting 
(suppression) activities are currently funded entirely within the U.S. 
Forest Service budget based on a 10-year rolling average. Today the 
agency spends nearly half of its budget on fire management activities 
and has seen a corresponding 39 percent decline in non-fire staffing 
since 1998. Between fiscal year 2015 and 2017, the 10 year average 
increased by $237 million. Absent action from Congress this year, the 
Forest Service will begin with $237 million less for all of its non-
fire programs next year. In a constrained budget environment, no agency 
can absorb this level of increase in costs or the loss in resources and 
capacity.
    Second, when appropriated resources fall short, as they did in 2015 
by $700 million dollars, the Forest Service is forced to transfer funds 
from non-fire programs to cover the cost of suppression. These mid to 
late season transfers stop projects, cause uncertainty and instability 
in planning, and impact the agency's ability to implement projects. 
Notably, the type of work delayed by the rising cost of suppression can 
include the needed restoration work on National Forest System lands 
adjacent to tribal lands.
    The President's Budget Request for FY 2017 continues a proposal 
from FY2015 to change wildfire suppression funding by providing access 
to nearly $1 billion for emergency purposes outside of the statutory 
discretionary limits. We can no longer afford to transfer funds away 
from mission critical work, nor can we sustain a growing 10-year 
average that permanently reduces an already shrinking portion of the 
Forest Service non-fire budget. A comprehensive fire budget solution--
that addresses both the growth of fire programs as a percent of the 
agency's budget and the compounding problem of annual fire transfers--
remains the most important action Congress can take to increase the 
pace and scale of forest restoration across all landscapes.
Tribal Forest Protection Act (TFPA) and the Anchor Forest Concept
    The Forest Service and Indian tribes share approximately 4,000 
miles of contiguous boundary with National Forest System lands. In the 
summer of 2003, nearly 20 Indian reservations were affected by 
wildfires from adjacent federal lands. In 2011, New Mexico's Las 
Conchas fire devastated over 15,000 acres of the Santa Clara Pueblo. 
Last year, wildfires scorched over 500 square miles of reservation 
lands in the Northwest. These fires severely affected tribal 
communities, destroying structures and costing tribes millions in lost 
resources and, tragically, a number of lives.
    The Tribal Forest Protection Act of 2004 (TFPA) authorizes the 
Forest Service and the DOI's Bureau of Land Management to give special 
consideration to tribally proposed projects to protect tribal natural 
and cultural resources on agency land adjacent to tribal lands. The Act 
authorizes tribes and the Forest Service to work together on National 
Forest System lands (through contracts or agreements) to reduce threats 
to Indian trust land and Indian communities. For a project to be 
approved, the National Forest System lands must pose a fire, disease, 
or other threat to tribal lands and communities, must be in need of 
restoration, and the project must involve tribal concerns about 
traditional and cultural resources.
    Passage of TFPA (Public Law 108-278) initially generated many 
project proposals with a few projects completed. The momentum of the 
new authority declined and subsequently few additional TFPA projects 
were proposed or completed by 2012. The Intertribal Timber Council 
(ITC), which represents over 60 Indian tribes with forest land, the 
Forest Service, and the Bureau of Indian Affairs undertook a study to 
determine why so few projects had taken place and what could be done to 
encourage use of this valuable authority. That effort resulted in a 
2013 report with several recommendations that are now being 
implemented.
    Since 2013, the TFPA has become an increasingly important tool to 
accomplish work on National Forest System lands. The Forest Service 
continues to work with the ITC to increase the understanding and 
awareness of the flexibilities with this authority. We have hosted 
three workshops, connecting over 150 tribal and Forest Service 
representatives, to find common areas of interest for TFPA projects. 
The first of several workshops was hosted in April 2015 and resulted in 
six proposals. The most recent workshop, held the week of May 23, 2016, 
was the most successful to date, and is expected to generate at least 
one proposal from each of the 10 participating tribes. These 
interactions have significantly increased the number of proposals, 
which will produce even more projects with partner National Forests.
Anchor Forests
    Anchor Forests are large contiguous areas that can support 
sustainable long-term wood and biomass production backed by local 
infrastructure and technical expertise, and that have been endorsed 
politically and publicly to achieve forest management objectives.
    The purposes of Anchor Forests are to:

  <bullet> Promote forest ecosystem function by maintaining and 
        improving working forests and the infrastructure needed to 
        increase ecosystem services and benefits gained from healthy 
        forests;

  <bullet> Reduce the impacts of insects, disease and wildfire in the 
        face of a changing climate through active forest management, 
        and

  <bullet> Provide a framework for cross-boundary land management that 
        achieves the social/cultural, economic, and ecologic values and 
        benefits realized through long-term stewardship.

    Forests throughout the United States are negatively affected by 
fragmentation, wildfire, insects, disease, drought and climate change. 
The management, harvesting, transportation and processing 
infrastructure necessary to sustain healthy and productive forests are 
disappearing. As a result, vital ecological systems and economies of 
rural communities are being severely impacted. The Forest Service 
intends to mitigate these adverse impacts through the Anchor Forests 
concept by creating large networks of interdependent local partners to 
promote robust large scale landscapes. The Intertribal Timber Council 
(ITC) believes that Anchor Forests are a ``common sense, multifaceted 
approach for retaining healthy working forests through partnerships, 
collaboration and coordination.''
    The Anchor Forests pilot project is funded through a $700,000 grant 
from the Forest Service to ITC. The pilot consists of three study areas 
in eastern Washington State, including Indian tribal lands of the 
Yakama Nation, Confederated Tribes of the Colville, and Spokane Tribe. 
Partners include the Forest Service (Region 6 and Pacific Northwest 
Research Station), Washington Department of Natural Resources, the 
University of Washington, The Nature Conservancy, and the University of 
Idaho. Data were gathered for six tasks: infrastructure analysis, 
Tapash collaborative case study, institutional capacity, barriers and 
solutions, tools and funding opportunities, and ecosystem services.
    Three Indian Forest Management and Assessment Team studies done in 
the last three decades have determined Indian tribal forests have 
desirable management practices. And, because most Indian tribal trust 
lands are considered ancestral lands, the Anchor Forests will remain 
intact for future generations.
Tribal Engagement Roadmap
    The Forest Service Research and Development Tribal Engagement 
Roadmap is a major step in improving the way our research community 
works with and serves tribes. Under the Roadmap, we are building and 
enhancing partnerships with tribes, indigenous and native groups, 
tribal colleges, tribal communities, and intertribal organizations. We 
are enhancing communication with tribes and other native communities by 
providing research results that are relevant for their needs in forums 
that are culturally appropriate and effective. Through a collaborative 
and participatory approach with tribes and tribal organizations, we 
seek to advance research on topics of joint interest, such as climate 
change, fire science, traditional ecological knowledge, water 
protection, fish and wildlife, forest products, non-timber forest 
products, restoration, social vulnerability, and sustainability.
Fuels Reduction
    Planning and implementation of vegetative fuels treatments are 
critical for all land management agencies, including tribes, to reduce 
the risk of undesired wildland fire impacts. The Forest Service 
consults with tribes to design and implement fuels treatments.
    The purpose of fuels treatments is to alter potential fire 
behavior; its full value is only realized when tested by a wildland 
fire. However, that value also relies on careful planning and design, 
and on proper implementation. Some fuels treatments require 
collaborative work between many partners and governments, and years of 
arduous efforts to complete a project.
    Fuels treatments can be effective in changing the outcome of 
wildfires because the fuel volume has been reduced and the structure 
and arrangement of the fuel has been modified. Ideally, the resulting 
fire behavior has lower intensity, thus providing wildland suppression 
personnel more options to safely manage the fire. Fuels treatments can 
serve as strategic points on the landscape from which to implement 
suppression operations and protect property and natural resources. 
Congress recognizes the utility and value of fuels treatments and has 
enacted legislation to support land management agencies to effectively 
implement fuels treatments.
    A recent example of the Forest Service working with the tribes in 
support of fuel treatments is the Isleta Project in New Mexico.
    As part of The Chiefs' Joint Landscape Restoration Partnership, the 
U.S. Forest Service and Natural Resources Conservation Service approved 
$1,520,000 for the Isleta Project in the East Mountains near 
Albuquerque. The authorities used to implement this project include the 
Collaborative Forest Restoration Program, Joint Chief's Initiative, 
TFPA, Forest Service Forest Health Protection Program, and the Wyden 
Amendment which allowed the Forest Service to fund fuels reduction 
projects in the Chilili Land Grant. Under the TFPA, the Pueblo of 
Isleta submitted a proposal to treat 10,420 acres across three 
political boundaries, including lands on the Sandia and Mountainair 
Ranger Districts. The 10,420-acre project will treat 2,000 acres on the 
Pueblo, 7,800 on Cibola National Forest, and 620 in the Chilili Land 
Grant. It will provide fuel wood, create local employment opportunities 
for Hispanic and Native American youth, and increase the small-scale 
wood products industry.
S. 3014: To Improve the Management of Indian Forest Land, and For Other 
        Purposes
    S. 3014 would amend the Tribal Forest Protection Act of 2004 and 
the National Indian Forest Resources Management Act. Although we did 
not have time to complete a detailed analysis, we generally support the 
intent of this bill but would like to work with the Committee on a few 
details. Some specific comments are listed below.
Section 2--Protection of Tribal Forest Assets through Use of 
        Stewardship End Result Contracting and Other Authorities
    Section 2 of the bill would amend the Tribal Forest Protection Act 
of 2004 to specify deadlines for responding to an Indian tribe's 
request to treat National Forest System lands adjacent to Indian forest 
land or range land, for completing the environmental analysis for the 
project, and entering into an agreement or contract with the Indian 
Tribe to carry out the project, or for denying the Indian tribe's 
request. Specifically, the Secretary would have two years to complete 
the environmental analysis for a project and enter into an agreement or 
contract with the Indian tribe to carry out the project. While this 
timeframe is a laudable goal, we anticipate that some projects will 
require work that extends beyond two years.
Section 3--Management of Indian Forest Land Authorized to include 
        Related National Forest System Lands and Public Lands
    Section 3 of the bill would amend the National Indian Forest 
Resources Management Act under which the Secretary of the Interior is 
authorized to carry out forest land management activities on Indian 
forest land to achieve the management objectives specified in the Act. 
The amendments would authorize the Secretary of Agriculture, at the 
request of an Indian tribe, to treat National Forest System land as 
Indian forest land for purposes of planning and conducting forest land 
management activities if the National Forest System land is located 
within, or mostly within, a geographic area that presents a feature or 
involves circumstances principally relevant to that Indian tribe. 
National Forest System lands that the Secretary treats as Indian Forest 
land would be managed exclusively under the National Indian Forest 
Resources Management Act.
    Although we are supportive of the general objectives of the bill, 
we'd like to work with the Committee to address concerns.
Section 4--Tribal Forest Management Demonstration Project
    Under section 4, the Secretary would be authorized to carry out 
demonstration projects under which federally recognized Indian tribes 
or tribal organizations may enter into contracts to carry out 
administrative, management and other functions under the Tribal Forest 
Protection Act, through contracts entered into under the Indian Self-
Determination and Education Assistance Act (ISDEAA).
    Currently, the Forest Service does not have authority to enter into 
self-determination contracts under the ISDEAA. We support applying this 
authority within a demonstration project, which would allow the 
evaluation of its usefulness to the agency and Indian tribes.
Summary
    The Forest Service is ready to assist tribal governments and 
communities in managing tribal forests to improve their health and 
resiliency which is in all parties' best interest. Joint steps will 
achieve mutually beneficial management objectives to reduce losses due 
to wildfire, and bolster post-burn environmental and social 
consequences. We are committed to our government-to-government 
relationship with tribes, and welcome the opportunity to consult with 
tribal governments to improve the resilience of our nation's forests 
across boundaries. We consider our work to be supporting sovereignty 
through shared stewardship.
    I will end this statement where I started. The single most 
important step Congress can take to advance forest health and 
resilience, and to further our collaborative partnerships with tribes, 
is to enable the Forest Service to continue its mission-critical work 
and not be forced year after year to respond to the growing 10-year 
average suppression costs by permanently diverting funds. A 
comprehensive fire budget solution-that addresses both the growth of 
fire programs as a percent of the agency's budget and the compounding 
problem of annual fire transfers-remains the most important action 
Congress can take to increase the pace and scale of forest restoration 
across all landscapes.
    Thank you for the opportunity to testify here today. This concludes 
my testimony. I'll be happy to answer any of your questions.

    The Chairman. Thank you so much for your testimony, Mr. 
Hubbard.
    I would like to now turn to the Honorable William 
Nicholson, Board Member, Intertribal Timber Council and 
Secretary, Colville Business Council, Confederated Tribes of 
the Colville Reservation from Washington State. Thanks for 
joining us.

STATEMENT OF HON. WILLIAM NICHOLSON, BOARD MEMBER, INTERTRIBAL 
     TIMBER COUNCIL; SECRETARY, COLVILLE BUSINESS COUNCIL, 
        CONFEDERATED TRIBES OF THE COLVILLE RESERVATION

    Mr. Nicholson. Thank you, Chairman Barrasso, Vice Chairman 
Tester and members of the Committee.
    My name is William Nicholson and I am currently Secretary 
of the Colville Business Council, the governing body of the 
Confederated Tribes of the Colville Reservation. I am also the 
delegate from the Colville Tribes to the Intertribal Timber 
Council.
    Forests are the most important trust asset for tribes 
because they provide food, jobs, clean air and water and are 
places of cultural and historical legacy. Indian forest 
management also provides revenue to the tribes for health care, 
education and other critical social services.
    To summarize my statement, tribes are deeply concerned 
about the failure to prioritize protection of tribal forests by 
Federal agencies. I will address these failures at each level 
before fires, during fires and after them.
    For this hearing, the ITC is releasing a report by the 
Indian Forest Management Assessment Team. This report plainly 
states that the Interior Department ``is actively failing in 
its responsibilities and fiduciary obligations to tribal 
forests.''
    Before wildfire, tribes and the BIA aggressively perform 
thinning and attack bugs and disease in our forests on a scale 
and speed not found on other forest lands. We do it on a 
shoestring budget.
    In fact, the BIA consistently receives $1 for every $3 
received by the Forest Service for service management. Even 
with effective treatments on our own lands, severe wildfires 
from adjacent Federal lands inflict serious damage to tribal 
forests. That is why Congress enacted the Tribal Forest 
Protection Act in 2004 authorizing the Forest Service and BLM 
to work with tribes to reduce fire risk on Federal lands 
adjacent to tribal forests.
    Sadly, just a handful of TFPA projects have been 
implemented in over a decade. The risk to tribal forests from 
adjacent Federal lands is worse than ever. For example, the 
Colville Tribe and its staff worked for years to develop two 
TFPA projects on neighboring national forests. In 2015 both 
those projects burned.
    We recently made some positive project progress with the 
Forest Service to improve TFPA performance. However, the ITC 
also supports the provisions in Senator Daines; legislation 
that would create timely and firm deadlines for agency response 
and implementation of TFPA projects. It also would allow tribes 
to ``638'' contract TFPA projects, which means tribes would 
have a greater role in both preparing and implementing TFPA 
projects to protect their own forests.
    The ITC also supports the provision in Senator Daines' bill 
that would authorize Federal land to be treated as ``Indian 
forest land'' for forest restoration projects. This means that 
tribes and BIA could help the Forest Service treat more acres 
by using more flexible management practices found on Indian 
land.
    Part II is during wildfire. Generally, fires on Indian land 
are smaller, are put out faster and have lower cost than other 
Federal fires. However, those costs are going up. On just five 
reservations in 2015, the cost of wildfires exceeds $200 
million. That is more than three times the entire national 
budget for management for all Indian forests in the country.
    Last summer, on these five reservations in the Pacific 
Northwest, 338,110 forest acres burned, damaging 1.2 billion 
board feet of tribal trust timber. The timber value alone 
exceeds $143 million with an additional $377 million in lost 
wages and services, totaling over $520 million. Losses for the 
Colville Tribe include 800 million board feet of timber worth 
approximately $96 million.
    Making matters worse, wildfire suppression priorities 
appear to be shifting away from tribal trust forests. We have 
seen fire crews and caretakers diverted to protect second homes 
and luxurious resorts or Sage Grouse habitat. We experienced 
this on the Colville Reservation in 2015 when suppression 
resources were directed to higher priority State and Forest 
Service fires while the Northstar fire grew to 220,000 acres.
    Part III is after the wildfire. Unlike other Federal 
managers, tribes have the desire and authority to quickly 
salvage burnt trees and recover some value from these fires. We 
are denied the emergency funding to do so.
    After the 2015 fires, tribes needed between $55 million and 
$100 million for emergency rehabilitation of burned forest. To 
date, we have received less than $10 million.
    The Indian forests are not just other trees managed by a 
different Federal agency. These are our homelands, sources of 
food and economic basis for Indian people across the country. 
They are the lands not taken by the Federal Government in 
treaties, but are now being taken by fire. We ask for your help 
to change that.
    Thank you.
    [The prepared statement of Mr. Nicholson follows:]

Prepared Statement of Hon. William Nicholson, Board Member, Intertribal 
  Timber Council; Secretary, Colville Business Council, Confederated 
                   Tribes of the Colville Reservation
    Good afternoon. Chairman Barrasso, Vice-Chairman Tester, and 
members of the Committee. My name is William Nicholson and I serve as 
the Secretary of the Colville Business Council, the governing body of 
the Confederated Tribes of the Colville Reservation. I also serve as 
the Colville Tribe's delegate to the Intertribal Timber Council. My 
testimony today is on behalf of the Intertribal Timber Council, but 
also reflects the Colville Tribe's experiences from the 2015 wildfire 
season.
    Thank you for holding today's hearing on fire and forest management 
in Indian Country. It's been said that forests are the most important 
trust asset for tribes. They provide food, jobs, clean air and water, 
and are places of cultural and historical legacy. Indian forests also 
provide revenue to tribes for health care, education and other critical 
social services.
    I also want to specifically thank Senator Daines for his work in 
introducing S.3014, which will provide tribes and federal agencies 
additional tools to restore forest health across the landscape.
    To summarize my statement, tribes are deeply concerned about the 
failure to prioritize protection of tribal forests by federal 
agencies--at both policy and funding levels. I will address these 
failures at each level: before fire, during fires, and after them.
    Indian forests are managed in a direct partnership between tribes 
and the US Interior Department, particularly its Bureau of Indian 
Affairs, but also its Office of Wildland Fire Management. We operate 
under federal law, specifically the National Indian Forest Resources 
Management Act (NIFRMA)--the most modern federal statute governing 
forests. One unique element of NIFRMA is that it requires an 
independent scientific panel to review Indian forest management every 
ten years in a report to Congress. No other federal land manager is 
submitted to such a review. The panel, known as the Indian Forest 
Management Assessment Team (IFMAT), released its third report in 2013 
and this committee has reviewed its findings.
    The devastation of last summer's wildfires on several Indian 
reservations led the Intertribal Timber Council to seek additional 
review by the IFMAT team into wildfire issues. For this hearing, the 
ITC is releasing this report called ``Wildfire on Indian Forests: A 
Trust Crisis'' (hereinafter referred to as the IFMAT 2015 Fire Report), 
which plainly states that the Interior Department ``is actively failing 
in its fiduciary obligations to tribal forests.''
Part I: Before Wildfire
    Generally speaking, Indian forests \1\ are healthier and more 
productive that other federal forests. This is an active and ongoing 
choice by tribes because they directly rely on their forests for 
virtually all aspects of life: economic, ecological and cultural. 
Tribal people directly experience the consequences of the both proper 
and improper forest management. And they hold their leadership 
responsible for management decisions.
---------------------------------------------------------------------------
    \1\ A total of 334 reservations in 36 states, 18.6 million acres of 
forests and woodlands are held in trust by the United States and 
managed for the benefit of Indians.
---------------------------------------------------------------------------
    Tribes, more than anyone, understand the historic role of fire in 
our ecosystem. We are actively reversing unnatural conditions in the 
forest to reduce the threat of catastrophic fire. Tribes attack bug and 
disease outbreaks effectively and aggressively, \2\ thin timber stands 
and use prescribed burns to ready the landscape for the inevitability 
of wildfire. Tribes and BIA perform these treatments on a scale and 
speed not found on other federal lands--and we do it on a shoestring 
budget.
---------------------------------------------------------------------------
    \2\ One such example is the response to budworm infestation on the 
Yakama Reservation. Timber sales were prioritized to treat areas that 
were most severely affected by the budworm. Between 1999 and 2003, 
silvicultural treatments were implemented on approximately 20,000 acres 
of budworm habitat per year--reducing infestation by 99 percent.
---------------------------------------------------------------------------
    In fact, the BIA consistently receives one dollar for every three 
received by the Forest Service for forest management. It is 
disheartening that the Administration's proposed budget for Fiscal Year 
2017 essentially flatlines BIA Forestry funding.
    Chronic underfunding of BIA forestry has created a 440,000-acre 
thinning backlog. The IFMAT team estimates that tribes need to be 
treating five to ten times the amount of acres they have been treating 
annually over the last decade. This growing backlog will only 
exacerbate the costs of future wildfire suppression, or decrease the 
resilience and productivity of untreated acres that are lucky enough to 
survive to rotation age.
    The bottom line here is that tribes have the ``will'' but not the 
``wallet'' to perform proper forest management. This may be the inverse 
problem of our federal neighbors. The answer may lie in creating new 
partnerships between BIA, tribes and other federal land management 
agencies.
    Congress began down this path 11 years ago with enactment of the 
Tribal Forest Protection Act--authorizing the Forest Service and BLM to 
work with tribes to reduce fire risk on federal lands adjacent to 
tribal forests. Tribes needed TFPA because even with effective 
treatments on our own lands, severe wildfires from adjacent federal 
lands inflict significant damage and economic cost to tribal forests.
    Sadly, just a handful of TFPA projects have been implemented in 
over a decade. The risk to tribal forests from adjacent federal lands 
is worse than ever. For example, two of the Colville Tribe's approved 
TFPA projects--that our tribal staff worked for years to implement with 
our neighboring national forests--were burned in the 2015 fire season.
    The Forest Service and ITC completed an analysis of how to improve 
TFPA effectiveness. For the past several years, we have made progress 
in bringing tribes and the Forest Service together for workshops to 
develop greater interest in using this authority. The ITC hopes this 
will eventually translate into more acres being treated.
    However, the ITC also supports the provisions in Senator Daines' 
legislation that would improve TFPA performance with timely and firm 
deadlines for agency response and implementation of TFPA projects. It 
also would allow tribes to ``638'' contract TFPA projects, which means 
tribes would have a greater role in both preparing and implementing 
TFPA projects to protect their own forests.
    We also support the provision in Senator Daines' bill that would 
authorize federal land to be treated as ``Indian forest land'' for 
forest restoration projects. This means that tribes and BIA could help 
the Forest Service treat more acres by using more flexible management 
practices found on Indian land.
    From a historical perspective, the vast majority of federal forest 
land has only had two title holders: Indian Tribes and the U.S. 
government. Tribes have an intimate knowledge of these landscapes and 
retain legal and cultural interests in seeing them managed in the best 
possible manner.
Part II: During Wildfire
    In addition to restoring forest resilience, Tribes also respond to 
fires more effectively. The average size of a fire on BIA-managed lands 
is three times smaller than on Forest Service land. Suppression costs, 
on a per-acre basis, are five times lower on BIA lands.
    However, those costs are going up. The recent IFMAT 2015 Fire 
Report estimates the cost of fire suppression and rehabilitation on 
just five reservation fires in 2015 exceeds $200 million. For 
perspective, that is more than three times \3\ the national budget for 
management of all Indian forests in the country.
---------------------------------------------------------------------------
    \3\ FY 2016 BIA direct Forestry Program and Forestry Projects 
funding at $51.9 million, plus FY 2015 BIA Self-Governance Forestry 
funding for Regional, Agency and Tribal functions of $7.8 million, 
totaling $59.7 million.
---------------------------------------------------------------------------
    Aside from suppression costs, the IFMAT 2015 Fire Report shows the 
full cost of fires to tribal communities. For the 2015 fire season last 
summer, a national total of 539,000 tribal trust forest acres burned. 
On the five reservations examined in the IFMAT 2015 Fire Report, 
338,110 forest acres burned, damaging 1.2 billion board feet of tribal 
trust timber. The timber value alone exceeds $143 million, with an 
additional $377 million in lost wages and services totaling over $521 
million. These losses impact tribes for decades into the future as we 
work to recover burned forests. Losses for the Colville Tribe included 
800 million board feet of timber worth approximately $96 million 
dollars.
    Tribes are therefore deeply concerned that wildfire suppression 
priorities appear to be shifting away from tribal trust forests and 
toward other federal lands and interests. Indian forests are a critical 
trust asset and we will fight aggressively to protect them from fire. 
But we cannot do that if fire crews and air tankers are diverted to 
protect second homes at luxurious resorts or sage grouse habitat--which 
is already happening on the ground. We experienced this on the Colville 
Reservation in 2015 as suppression resources were directed to higher 
priority State and Forest Service fires while the Northstar fire grew 
to 220,000 acres.
    The Interior Department is working on a new way to prioritize its 
wildfire funds. The so-called ``Risk-Based Wildland Fire Management 
Model'' is of great concern to tribes. The IFMAT 2015 Fire Report found 
that the values prioritized in this model are inherently biased against 
tribal trust land and the government's fiduciary responsibility to 
protect them.
    To date, the Interior Department has not conducted meaningful 
consultation with tribes on this significant policy change.
Part III: After Wildfire
    Historically, \4\ tribes have responded far faster than other 
federal agencies to recover economic value and begin the rehabilitation 
process. However, the federal response to last year's historic fires in 
Indian Country suggests a growing failure to meet its basic trust 
responsibilities.
---------------------------------------------------------------------------
    \4\ The 2002 Rodeo-Chediski fire burned 467,000 acres of tribal and 
federal land, including half the timber on the Fort Apache Indian 
Reservation. While significant damage was done to tribal forests, the 
intensity of the fire was dramatically less on tribal land. Likewise, 
tribal salvage and reforestation began within months of the Rodeo-
Chediski fire--removing up to 500,000 board feet of fire-killed timber 
a day. The Forest Service faced litigation that delayed salvage 
operations, and thus reducing the value and increasing the cost of the 
operation.
---------------------------------------------------------------------------
    The IFMAT 2015 Fire Report documents how the Department of Interior 
is declining to recognize the historically severe 2015's fires in 
Indian Country, hindering needed recovery and compounding the resource 
losses already inflicted on tribes.
    The BIA estimated a need for $55 million for post-fire recovery 
funding for Indian forests burned in 2015. Yet the Office of Wildland 
Fire only designated $3.4 million of its $19 million burned area 
recovery budget for Indian forests. To our knowledge, the 
Administration did not seek any additional funds from Congress for 
Indian forest recovery, while it did seek over $700 million to repay 
the Forest Service for excess wildfire suppression costs. The Colville 
Tribe requested $20 million for Burned Area Rehabilitation (BAR). The 
Northstar and Tunk Block fires burned 252,000 acres on the reservation 
last year. Along with this huge workload the Tribe is also tasked with 
continuing rehab efforts on 2014's Devils Elbow fire, which burned an 
additional 26,000 acres.
    It adds insult to injury when tribes are denied recovery funding to 
address fires whose intensity was largely the result of insufficient 
federal resources. Also outrageous is that tribes, unlike other federal 
managers, have the desire and authority to quickly salvage burned trees 
and recover some value from these fires. This would support the 
dwindling forest products infrastructure that Congress is trying to 
preserve.
    Despite the obstacles facing us, the Colville Tribe salvaged 60 
million board feet of timber before seasonal restrictions halted 
logging in late February.
Conclusion
    The IFMAT 2015 Fire Report contains many recommendations to the 
Interior Department and to Congress. Fundamental to all of them is 
acknowledgement of the trust responsibility for Indian forests. These 
are not just other trees managed by a different federal agency. These 
are homelands, sources of food and economic bases for Indian people 
across the country. They are the lands not taken by the federal 
government in treaties. But now they are being taken by fire. We ask 
for your help to change that.

    The Chairman. Thank you so much for your testimony, Mr. 
Nicholson. We are grateful you were able to make the trip and 
be with us today.
    Next is the Honorable Carole Lankford, Council Member of 
the Confederated Salish and Kootenai Tribes from Montana. Thank 
you so much for joining us today.

STATEMENT OF HON. CAROLE LANKFORD, COUNCIL MEMBER, CONFEDERATED 
                   SALISH AND KOOTENAI TRIBES

    Ms. Lankford. Good afternoon, Chairman Barrasso, Vice 
Chairman Tester, Senator Daines and distinguished members of 
the Senate Committee on Indian Affairs.
    My name is Carole Lankford. I am an elected Council Member 
of the Confederated Salish and Kootenai Tribes of Montana. You 
have my submitted statement and I will now summarize it.
    Thank you for holding this hearing on improving interagency 
forest management to strengthen tribal capabilities for 
responding to and preventing wildfires and on Senate Bill 3014, 
a bill to improve the management of Indian forestlands.
    Thank you for inviting me to be a part of this discussion. 
I also want to specifically thank Senator Daines for his work 
and introducing S. 3014 which will provide tribes and Federal 
agencies additional tools to restore forest health across the 
landscape. Thank you for allowing our tribe to have input on 
the current draft bill.
    The reality is that as well intended as the Tribal Forest 
Protection Act of 2004 was, it has not been implemented in any 
meaningful way. Tribal stewardship contract proposals just seem 
to gather dust at BLM or U.S. Forest Service offices despite 
the fact that poor health of forests managed by those agencies 
adjacent to tribal lands can have negative effects on our 
lands.
    Forest disease has spread from those lands to our lands. 
Despite our professional and innovative approaches to dealing 
with those problems, the bureaucracies of those agencies have 
stifled requests by tribes to allow our experts to implement 
forest restoration projections under the TFPA.
    S. 3014 will require the Secretaries of Agriculture and 
Interior to reply in a timely fashion and hopefully will lead 
to some innovation and protection of forest management 
practices on lands surrounding Indian reservations. These 
changes are long overdue.
    Before continuing, I also want to acknowledge and thank our 
senior Senator, Jon Tester, for his unwavering friendship and 
advocacy on behalf of Indian people in Montana. There is not 
enough time in a day to reiterate the many contributions of his 
leadership but they are all appreciated on so many levels.
    The Flathead Indian Reservation is approximately 1.3 
million acres, over one-third of which or 460,000 acres are 
forested. About half is available for active forest management. 
We have a Forest Management Plan that encompasses an ecosystem 
management perspective with long term functional and structural 
goals related to forest health and restoration. Our forests are 
a vital part of our everyday lives.
    Over the past ten years, our tribal fuels personnel have 
treated over 7,300 acres per year in fuels reduction 
treatments, including thinning, piling, pile burning, and 
understory burn projects. We take great pride in being active 
land managers, to sustain vital forest communities for our 
future generations.
    Over the last 18 year period, we have averaged 85 wildfires 
per year that have burned over 145,000 acres in that timeframe, 
yet proudly with no lives or structures lost. The largest and 
most devastating was the Chippy Creek Fire in 2007 that burned 
over 99,000 acres, of which about a third or 33,000 forested 
acres that burned were on our reservation and were important 
tribal forest lands.
    Our most fundamental problem is not the so-called Wildland 
Urban Interface. It is the interface with our own Federal 
Government, issues of funding, priorities and borders. This is 
why tribes are very sensitive to discussions about priorities 
for funding in fuel reduction treatments, in fire suppression 
resources when wildfires occur, and in funding for 
rehabilitation of lands after the devastating fires are out.
    The Federal Government has long-affirmed fiduciary 
obligations to protect Indian trust assets, and cannot simply 
let them burn while it protects often insured private property 
at resorts. My written statement discusses the failed and 
thankfully withdrawn Hazard Fuels Prioritization and Allocation 
Process of 2012 and 2013 that was established by the Office of 
Wildland Fire.
    Had that system been implemented, my tribe and the Yakima 
tribe would have lost 90 percent of their hazard field 
reduction budget. My tribe and others have asked for a 
reevaluation of fire suppression priorities. We believe that 
the protection of our vital trust forest assets fully warrant 
fire suppression priority at least on a par with that for 
private structures, and we apparently need congressional 
direction to the agencies on that point.
    The fiduciary trust responsibility and the protection of 
Tribal natural, cultural and economic resources must be 
incorporated in all DOI wildfire funding allocation systems and 
those trust resources must be paramount when allocations are 
made.
    Thank you for your time.
    [The prepared statement of Ms. Lankford follows:]

      Prepared Statement of Hon. Carole Lankford, Council Member, 
                Confederated Salish and Kootenai Tribes
    Good afternoon Chairman Barrasso, Vice Chairman Tester, Senator 
Daines and distinguished members of the Senate Committee on Indian 
Affairs. Thank you for holding this hearing on Improving Interagency 
Forest Management to Strengthen Tribal Capabilities for Responding to 
and Preventing Wildfires, and on the Senate Bill 3014, a bill to 
improve the management of Indian forest land, and for other purposes 
and thank you for inviting me to be a part of this discussion.
    I also want to specifically thank Senator Daines for his work in 
introducing Senate Bill 3014, which will provide tribes and federal 
agencies additional tools to restore forest health across the 
landscape. Thank you for allowing our Tribes to have input into the 
current draft bill. The reality is that while as well intended as the 
Tribal Forest Protection Act (TFPA) of 2004 was, it has not been 
implemented in any meaningful way. Tribal Stewardship Contracting 
proposals just seem to gather dust at BLM and US Forest Service offices 
despite the fact that the poor health of the forests managed by those 
agencies that are adjacent to tribal lands can and have negatively 
affected our lands. Fire and disease have spread from those lands to 
ours and despite our professional and innovative approaches to dealing 
with those problems; the bureaucracies of those agencies have stifled 
requests by tribes to allow our experts to implement forest restoration 
projects under TFPA. S. 3014 will require the Secretaries of 
Agriculture and Interior to reply in a timely fashion and will 
hopefully lead to some innovation and protection in forest management 
practices on lands surrounding Indian reservations. These changes are 
long overdue.
    The Flathead Indian Reservation is located in western Montana. It 
is approximately 1.3 million acres, over one-third of which or 460,000 
acres are forested. About half is available for active forest 
management. The other half is set aside for wilderness and other 
primitive uses. Included in that is the first tribally designated 
wilderness in the United States. We have a Forest Management Plan (FMP) 
that encompasses an ecosystem management perspective with long term 
functional and structural goals related to forest health and 
restoration. We focus on managing and protecting our entire homelands. 
Our forests are a vital part of our everyday lives.
    Our tribal ancestors took a very active role in management of our 
vegetative landscape, primarily with fire, be it prescribed or wildfire 
in nature. Our traditional world evolved from a cultural landscape that 
was shaped by fire. This way of life continues today. We are steadily 
working toward re-introducing fire to our lands and in so doing 
enhancing our diverse utilization of our natural resources. Our 
approach is all-inclusive and involves more than just the Wildland 
Urban Interface and/or certain species of interest, which others seem 
to overly emphasize. Over the past ten years, our tribal Fuels 
personnel have treated over 7,300 acres per year in fuels reduction 
treatments, including thinning, piling, pile burning, and understory 
burn projects. We take great pride in being active land managers, to 
sustain vital forest communities for our future generations.
    Over the last 18 year period, we have averaged 85 wildfires per 
year that have burned over 145,000 acres in that timeframe, yet proudly 
with no lives or structures lost. The largest and most devastating 
being the Chippy Creek Fire in 2007 that burned over 99,000 acres, of 
which about a third or 33,000 forested acres that burned were on our 
reservation and were important tribal forest lands. Our most 
fundamental problem is not the so-called Wildland Urban Interface. It's 
the interface with our own federal government--issues of funding, 
priorities and borders.
    Earlier this year, the Intertribal Timber Council testified before 
Congress about last summer's fires that severely impacted a number of 
western Indian reservations, the majority of which were in Washington 
State. In some cases, federal suppression resources were diverted from 
Indian reservations to fires threatening private property elsewhere. 
Yes, while in the middle of fighting fires on Indian lands, 
firefighters were suddenly pulled away and sent to a different and 
apparently more important place. That's when the reservation fires 
exploded. Nearly 500,000 acres of Indian trust forest burned. 
Approximately 1.5 billion board feet of timber was destroyed, worth 
hundreds of millions of dollars in tribal revenue. This is revenue 
badly needed for health care, education and law enforcement, similar to 
the property tax base for county governments. These forests provide 
critical jobs for Indian people, they provide habitat for some of our 
most important sources of food, nutrition and medicines and they are 
central to our culture.
    This is why tribes are very sensitive to discussions about 
priorities for funding in fuel reduction treatments, in fire 
suppression resources when wildfires occur, and in funding for 
rehabilitation of lands after the devastating fires are out. The 
federal government has long-affirmed fiduciary obligations to protect 
Indian trust assets, and cannot simply let them burn while it protects 
often-insured private property at resorts. After the United States 
settled the so call Salazar cases for over $1 billion for the 
mismanagement of Indian trust lands, it seems odd to us that those 
making determinations about allocating fire funds have given such low 
priority to protecting lands that they hold in trust. We can only 
assume that there is a fundamental misunderstanding about what the role 
of a trustee is in this situation. Let me cite a few examples. In 2012 
and 2013 the Office of Wildland Fire (OWF) came up with a process for 
allocating funds they called the Hazard Fuels Prioritization and 
Allocation Process (HFPAS). Tribes kept asking for input into helping 
design a fair formula and our pleas were ignored. Had it been 
implemented as proposed, my Tribes and the Yakama Nation would have 
both have had our Hazardous Fuels dollars decreased by over 90%! We 
appreciate that both Senator Tester and then Congressman Daines sent 
letters to Interior expressing concerns about HFPAS. Finally after OMB 
began questioning the fairness of HFPAS, it was withdrawn. More 
recently the BIA received only 6 percent of a new formula for 
allocating funding in 2015 under the Office of Wildland Fire's 
``Wildland Fire Resilient Landscapes Program.'' This is a program 
focusing on the ``integrity and resilience by restoring natural 
vegetation landscapes to specific conditions and maintaining fire 
resiliency. Now are trying to deal with the latest allocation method 
that the OWF has proposed that they call the ``Risk Based Wildland Fire 
Management Model'' (RBFMP). Don't just listen to our concerns on this; 
the congressionally established Indian Forest Management Assessment 
Team (IFMAT) has said that the values prioritized in this model are 
inherently biased against tribal trust land, the federal government's 
trust and fiduciary responsibility to protect those lands. On the 
larger picture the 2015 IFMAT Fire report stated that the Interior 
Department ``is actively failing in its fiduciary obligations to tribal 
forests.''
    So my tribe and many others have asked for a re-evaluation of fire 
suppression priorities. We believe that the protection of our vital 
trust forest assets fully warrant fire suppression priority at least on 
a par with that for private structures, and we apparently need 
Congressional direction to the agencies on that point.
    No President in my lifetime has shown a better understanding of 
this trust relationship than has Barack Obama and his Secretaries of 
the Interior have shared that support but in the area of forestry 
firefighting we don't think our letters and emails are getting to the 
sixth floor, so I am hopeful that my words today will be understood 
with good spirit and cooperation.
    The Bureau of Indian Affairs receives about one dollar for every 
three that the Forest Service gets for forest management. Yet fires on 
Indian land are generally smaller and less destructive. We produce more 
timber volume but also accomplish more for wildlife, water and air 
quality. Surely there are lessons to be learned from Native people.
    We support more funding being obligated to tribes to reduce 
hazardous fuels to enhance and protect natural, cultural and economic 
resources, reduce the cost of fire suppression and improve the safety 
of our fighter fighters. Fuels treatments in forested environments have 
a reasonably long effective period of reducing fire behavior and 
providing safer opportunity to suppress fires in initial attack and 
significantly reduce the cost of fire suppression. The Fiduciary Trust 
Responsibility, and the protection of Tribal natural, cultural and 
economic resources must be incorporated in all DOI Wildfire Funding 
Allocation systems and those trust resources must be paramount when 
allocations are made.
    While Secretarial Orders such 3360 and 3336 have their place they 
do not exceed Executive Orders and Federal Court decisions supporting 
the Fiduciary Trust Responsibility owed to Tribes by the Federal 
Government.
    Clearly we are concerned with the performance of the Federal 
Government ``our Trustee'' when funding allocation systems are 
developed. Systems recently developed including HFPAS and RBFMP have 
disregarded tribal goals and objectives and fallen way short of the 
requirements of a Trustee. We constantly have worked to undo what OWF 
has created. We want Tribes to have an opportunity to treat and protect 
Tribal trust lands at the least on par with the allocations other land 
managers receive.
    Our lands are our home; the uniqueness of Indian Country is the 
sacrifice that has shaped the political boundaries we see today. We are 
left with remnants of our usual and accustomed areas that we know must 
be preserved for the future; it is all we have left, and the United 
States has a fiduciary obligation for its protection. When wildfire 
strikes, this protection must include our vital forest resources. To 
prioritize the sacrifice of this critical asset so that private 
structures or certain birds can be saved is a continuing injustice, and 
we look forward to working with the Congress on fashioning its 
correction.

    The Chairman. Thank you so much for your testimony and for 
being here today.
    We will start the questioning with Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    Ms. Lankford, CSKT has an award winning forestry 
department. In fact, Jim Hubbard mentioned that to me yesterday 
after we met. I think we both agreed the rest of the Federal 
Government could certainly learn from CSKT how to more 
effectively manage forests.
    I understand the fact that tribes are managing forests that 
are tribal homelands contributes to tribes being able to do so 
very effectively and efficiently. Could you share a bit about 
that?
    Ms. Lankford. That is a very good question. You are right, 
western Montana and parts of Idaho and Washington are the 
tribe's homeland.
    However, first and foremost, it is about the DNA we carry 
about taking care of the land. It is about being on the land 
with our people. We have a college that educates our young 
people and then they come to work for us.
    Let me tell you a bit about my own family. Me and my now 
ex-husband worked in fire. His dad worked in fire. I have three 
boys who work in fire. Their children will go on to get 
forestry degrees. That is how important the resources are to 
Indian people. We protect it at all cost. It is not just the 
resource but everything around us, like our water, is so 
important to us.
    I believe it is attributed to the love of the land and the 
love of our homeland. With this bill, I was so happy to see we 
are going to be able to have a chance to take care of land 
outside of the reservation so near and dear to my people and 
all tribes across this Nation that love the resources. Mother 
Earth, we take care of it. That is how we were brought up.
    Senator Daines. For a tribe, historical tribal homeland is 
significant whether on the Flathead Reservation or the Lolo 
National Forest. Is that right?
    Ms. Lankford. Absolutely.
    Senator Daines. These lands have an equal amount of 
significance and meaning to a tribe?
    Ms. Lankford. Yes.
    Senator Daines. The centerpiece of the Tribal Forest 
Participation and Protection Act, which we are discussing 
today, is the section which gives the Secretaries of the 
Interior and Agriculture the ability to treat Federal 
forestland as Indian forestland at the request of the tribe for 
purposes of forest restoration and fuels reduction projects 
through National Indian Forest Resources Management Act 
authorities.
    As we saw in the examples of Chippy Creek and where there 
has been treatment, it has certainly been a very important 
preventer of wildfire spreading further. We know wildfires are 
not respecters of boundaries. They do not care whether it is on 
national forest or Indian lands. The bottom line is we need to 
be thinking beyond just where the boundaries are.
    In Montana alone, we have over 7 million federally-
controlled acres at high risk for wildfire. Ms. Lankford, would 
you agree that doing so would allow for active management 
projects to get done on Federal lands and faster?
    Ms. Lankford. Absolutely. In the past, we had tried to do 
projects. I think some have been successful but we need to 
continue on. We have a reservation of 1.3 million acres and it 
is all pretty much surrounded by national forest lands.
    Whatever we can do, absolutely, is just a good way to 
manage forests. If we have a way to do it, why not share that 
instead of reinventing the wheel. These agencies are so 
daunting to work through. You have a NEPA process and I found 
what works well for us in that process, I know that is not a 
part of your question, but it is about our disciplines coming 
together to say, yes, we have to get this done.
    It is not about me and him fighting. It is about our people 
at home. We represent those people. We need to do the job that 
we are hired to do. Hopefully this bill will come together and 
make us able to do exactly that.
    Senator Daines. Mr. Hubbard, would you agree with that?
    Mr. Hubbard. Yes, sir. Working across that boundary is 
important, especially with the tribal lands that are so well 
managed. We would like to extend that where we can across that 
boundary.
    Senator Daines. Mr. Nicholson, how about you? Would you 
agree with that?
    Mr. Nicholson. Absolutely, I would agree. We have had 
examples where the TFPA was working but was not fast enough. We 
did not have the flexibility that this legislation will 
provide.
    Senator Daines. Mr. Hubbard, I am running out of time. 
Would you elaborate on how you might see this new authority as 
beneficial to reducing the fire risk on Federal land?
    Mr. Hubbard. As you have heard, management of tribal lands 
is pretty important to the tribes. It means a lot more than 
just ecology. It means culture, livelihood and a lot of things. 
We would like to have that sense of land and land management 
come across the boundary onto the national forests, yes.
    Senator Daines. Thank you.
    The Chairman. Thank you, Senator Daines.
    Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman. I am a little 
embarrassed but I will try and push through that embarrassment.
    I am back to my question, Mr. Black. Has BIA done any 
studies in Indian Country relative to first response? If you 
have, can you get that information to us?
    Literally, I was told at Fort Yates that if your house is 
burning, there is no 911 call that can be made to any fire 
authority to basically put out that fire.
    Mr. Black. I take it when you say ``first response,'' you 
are talking about to structural type fires?
    Senator Heitkamp. Right.
    Mr. Black. I do not know if there has been a study done but 
we do not have any robust structural fire program within BIA. 
There are very, very limited resources. A lot of times we rely 
on the local communities or counties to help provide those 
structural fire services to the reservations.
    We do have some volunteer fire departments, kind of spotty 
at different reservations around the country. Let me get back 
and see if we have anything.
    Senator Heitkamp. That would be good. If you would, Mr. 
Black, get hold of FEMA and kind of talk about this issue 
because there may be an opportunity for training. We cannot 
leave a community the size of Fort Yates unprotected.
    As I said earlier, the wildfire that ravished Standing Rock 
Sioux Nation basically crept in to Cannon Ball. There was a 
fire response there because it began as a grass fire but if 
that had begun as an explosion or some kind of fire in a 
structure, there would not have been a 911 response which I 
think is terrifying.
    Back to the topic here, Deputy Hubbard's testimony mentions 
three workshops they have held with tribes. I am wondering, Mr. 
Black, has BIA been a part of these workshops in order to 
ensure coordination? If you have, are there plans to hold joint 
events in the future?
    Anytime we end up in a situation where there is more than 
one agency involved, we always are concerned, number one, about 
consultation with the tribes, making sure the tribes have input 
but also coordination across agencies.
    Given that you are USDA and you are DOI, how does that 
work?
    Mr. Black. I think Mr. Hubbard can probably confirm that we 
have been participating in those and coordinating with them in 
these different workshops, along with ITC, is my understanding. 
My understanding is our future ones will be planned.
    We will continue to coordinate and collaborate with the 
Forest Service and ITC on those.
    Senator Heitkamp. I think that is good but I think we also 
are hearing the need for collaboration and then looking outside 
just the tribal lands. As Senator Daines expressed, wildfires 
and fires do not know boundaries.
    Mr. Hubbard, you highlighted the Forest Service involvement 
with the Intertribal Timber Council. You mentioned a recent 
workshop expecting to generate at least one proposal from each 
of the ten tribes.
    Can you elaborate on how many proposals have been submitted 
over the decade and how many were actually implemented based on 
tribal input?
    Mr. Hubbard. I will have to get those numbers for you but I 
can tell you since our session with ITC, about two years ago, 
there have been 23 proposals, 18 active, and that training is 
ongoing.
    We found in trying to determine why the Tribal Forest 
Protection Act had not been used more than the attempts had 
been made both ways, the Forest Service to the tribe, the 
tribes to the Forest Service, but the connections were not 
happening.
    We designed the training to make sure we had the right 
tribal leaders with the right Forest Service leaders, coming 
together and getting the training at the same time. That seems 
to be working a lot better.
    Senator Heitkamp. How would you grade the effort in terms 
of collaboration and coordination with the tribes?
    Mr. Hubbard. I would say they are doing a lot better in 
coordination. We need to do better in making that work on the 
ground. We still have some lessons to learn in the 
implementation.
    Senator Heitkamp. One of the things we are always going to 
ask about is consultation. It is the key to the relationship. 
When we do not have consultation and people on the ground who 
appreciate the need to consult, that is when we end up with 
duplication of services or the inability to deliver services.
    Thank you and I look forward to continuing the discussion.
    Mr. Black, I look forward to having ongoing discussions 
about first responder protection for Indian Country.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Heitkamp.
    Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Thank you for 
having this hearing.
    I wish that I had been here from the beginning but as you 
know, we have been working on legislation in the Energy 
Committee to address the issues of fire, fire borrowing, forest 
management and how we, quite honestly, are smarter in 
preventing these wildland fires that impact amazing parts of 
our States and across the country.
    Alaska had the second worse fire year in our State's 
history last year. Over 5 million acres of land was consumed by 
fire. The statement was made that fire knows no boundaries. It 
is moving from Federal land to State land to Native allotment 
land. It is moving indiscriminately. We recognize that, at 
least in my State, the situation in front of us is likely to 
grow increasingly dire as we look at the forecast.
    This afternoon, I wanted to raise the role that our tribal 
members, those in particularly Alaska Native villages, the 
roles they can play when it comes to fighting our fires. We are 
very, very proud of many of our hotshot crews that come from 
the villages. They clearly rely on the income they receive from 
fighting wild fires during the summer season.
    It is more than just the income. These are really strong 
professionals in their field in terms of what they understand. 
They know how to fight fires, they know the region like nobody 
else does and they do extraordinary work. They bring great 
pride to the village.
    Last year, we had a wildfire that threatened the Village of 
Nulato which is about 300 miles west of Fairbanks up on the 
Yukon River. The airstrip was closed by fire. Most of the 
residents had to evacuate by boat.
    We were fortunate in that situation because as the fire was 
spreading to the village, we had a fire crew arrive and they 
were able to secure barriers, perform burnout operations and 
effectively secured and saved the village.
    The irony here is that Nulato is a village that has been 
providing emergency firefighter crews to the Alaska Fire 
Service for about 50 years now. They are really good at what 
they do. During this fire, their crew was on assignment 
fighting another fire in another part of the State.
    This crew would have had an additional 15 to 20 
firefighters who could have stepped up to that job but they had 
not received their qualifications so they were not able to 
fight the fire. We had fires burning all over the State and had 
crews coming in from as far away as Pennsylvania, Georgia, 
Kentucky, Oregon and California. These fire crews were coming 
to us when we have extraordinary capability on the ground.
    I bring this up because it is so important that we do what 
we can to increase our support for our local tribal crews. I 
understand in some years, we are not going to have the number 
of fires. I would like to think that we would not.
    These firefighters are put in an on-call status, waiting to 
go to work. Sometimes they wait, sometimes they move on to 
other jobs. I think we recognize that in those years where they 
are not being called out for these fires, there are things they 
can be doing like the hazardous fuels reduction, mitigation, 
and making sure these crews are trained and ready to go when 
they are needed and called on.
    Making sure we are doing that, making sure we are providing 
for increased certification and training, allowing the tribes 
to provide training when appropriate is something I would like 
to throw out.
    I have consumed my whole time just kind of talking but I 
want to make sure that we are focused on what it is that we 
should be doing in ensuring that we are utilizing truly the 
experts on the ground. I do not know if we are focused on these 
types of training programs and the certifications necessary. If 
we are not, I would certainly hope that those in agencies would 
work with us on this.
    I got a nod from Mr. Black. I take it that is an 
affirmative from the BIA and Mr. Hubbard as well from the 
Forest Service, a bit different there but I appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Once again, I want to thank Senator Daines for his work on 
this bill.
    I am going to start with you, Mike. Early in your 
testimony, you talked about it but do you have a ballpark 
figure about how much acreage would be eligible for management 
under this bill, how many acres?
    Mr. Black. Right now, we do not, Senator. Our team and I am 
sure Mr. Hubbard's teams at the Forest Service are currently 
evaluating what the overall scope of the environment would be. 
Hopefully, we will be able to get back to you with that soon.
    Senator Tester. Could it be all the Forest Service land and 
all the BLM land?
    Mr. Black. I do not know if it would be all. I think we 
need some clarity within the bill as to exactly what would 
qualify and would it be a certain zone outside the reservation.
    Senator Tester. I do not know if you can answer this or 
not. This is for any one of the three of you actually. What is 
a rough estimate on how many acres a forest project is? Mr. 
Hubbard, they are looking at you.
    Mr. Hubbard. It could be anything from 100 acres to 100,000 
acres.
    Senator Tester. Aren't you kind of dealing with trying to 
deal with the ecosystems?
    Mr. Hubbard. You are. In this case, we are dealing with 
ecosystems and priorities within ecosystems and crossing that 
boundary. We would like to make it as large a scale as we can.
    Senator Tester. I agree with you.
    We have heard from agencies there is potentially some 
confusion about their roles under Section 3 of S. 3014. I want 
to hear a little bit to see if you guys can flesh this out a 
bit. I will start with you, Jim.
    Can you give us your impression of how the Forest Service, 
the Department of Interior and specifically the BIA would be 
involved in the implementation of Section 3?
    Mr. Hubbard. Our view of this is first, we subscribe to the 
cross boundary work. We subscribe to involving the tribes in 
that cross boundary work to increase our capacity to get that 
work done and to have some relief in process so that it can get 
done faster.
    How would that work? Those details in the bill might need 
additional definition. Certainly we would start by sitting down 
together with the tribes and talking about where our priorities 
are, where we want to do the work together, and where it is the 
most important to protect the values that we are trying to 
protect.
    Senator Tester. At least around here, it does not matter if 
we are talking on committees or anywhere else, turf tends to be 
a big problem. Who would be the final decision-making 
authority?
    Mr. Hubbard. That is a sensitive point, as you well know. 
On national forests, the Forest Service would like to think 
they would have the final decision authority but that does not 
mean we cannot share a whole lot of process before we get to 
that decision.
    Senator Tester. Is that saying the Forest Service would be 
implementing the BIA regs?
    Mr. Hubbard. It is saying if we are authorized to use the 
BIA regs as part of our process and that is helpful, we would 
like to do that but the Forest Service would probably want to 
maintain that final decision authority.
    Senator Tester. Would this have any effect on public 
involvement?
    Mr. Hubbard. It could. I think some of those authorizations 
streamline the public involvement or narrow the public 
involvement.
    Senator Tester. Mr. Nicholson, how would the tribes be 
involved in forest management on national forests and public 
lands under the NIFRMA provision?
    Mr. Nicholson. We have collaborated with the U.S. Forest 
Service on some TFPA projects. I believe this legislation would 
help us get more projects on the ground.
    To answer your earlier question about how many acres a 
project would be, we focus on roughly a third of the watershed. 
That equals about 3,000 acres of project. We had two projects 
going at the same time, one in two different national forests.
    I think this would help us manage lands especially 
bordering our reservations. As many have suggested, fires know 
no boundaries. However, we would like to protect our boundary. 
I think that would protect both the Forest Service and our 
reservation lands.
    Senator Tester. The watershed you are talking about is in 
your reservation or lands that border your reservation, 
correct?
    Mr. Nicholson. Yes.
    Senator Tester. Correct me if I am wrong, do you see this 
bill as opening it up to land that is more than just land 
adjacent to the reservation?
    Mr. Nicholson. We see it as opening it up. Our reservation 
is different. We sold roughly 1.5 million acres to the 
government, so we have about 1.5 million and still hunt and 
still gather on that. We hope that would open up that 1.5 
million acres.
    Senator Tester. Excuse me for going over, Mr. Chairman.
    So, who has the final decision-making authority from your 
perspective?
    Mr. Nicholson. I think we need to collaborate with the U.S. 
Forest Service and the BIA and try to come to a conclusion we 
can all be happy with but I would like it to be the tribe.
    Senator Tester. I like your honesty.
    Mr. Black, kind of the same thing. Confusion with agency 
roles, do you see this as an issue that needs to be ironed out? 
I think it can be ironed out, by the way.
    Mr. Black. I agree. I think it can be ironed out but we 
probably have a lot of the same questions the Forest Service 
does regarding BLM and BIA's role and responsibilities within 
this process.
    Senator Tester. You want BIA to be the final decision 
maker, I would assume.
    One last thing I would point out to Carole, if I may. 
Carole, your tribal college has a forestry program?
    Ms. Lankford. Yes.
    Senator Tester. I think it is an incredible asset. Can you 
tell me how we can encourage other tribal colleges around the 
country that have a use for this to get that kind of curriculum 
going? I think it is critically important not only for tribal 
lands but for all lands that are forested.
    Ms. Lankford. That is a very good question. I think all 
across our Nation and forest jobs, we can see we are losing 
people left and right. Whatever we can do, I am not sure what 
that is, but I would guess being a model as a tribe to show 
people that you can get it done.
    We have the capabilities and can provide that for you, a 
degree to get that education, to have people come visit us, so 
do not reinvent the wheel. We will show you how to get it done. 
It is a very good program.
    Senator Tester. Yes, I think we can use you as a model for 
a lot of tribal colleges around the country.
    Thank you all for your testimony. Thank you all for your 
frankness in your answers. Thanks for being here, Carole.
    The Chairman. Thank you, Senator Tester.
    Senator Daines.
    Senator Daines. Thanks, Mr. Chairman.
    Mr. Hubbard, I am glad to hear that the Forest Service, in 
conjunction with the Intertribal Timber Council, has held a 
number of Tribal Forest Protection Act implementation workshops 
over the last year. As a result, additional projects are 
expected in coming years. That is good news.
    What were the takeaways that came out of these workshops?
    Mr. Hubbard. The biggest takeaway was getting the 
alignment. We needed to be talking to each other and about 
what, our Forest Service line officer with the right member of 
the tribe who had responsibility for the land management who 
could take those decisions forward through the tribal decision 
process.
    Getting those connections made and getting the right 
discussions to come forward for decisions for the tribe and the 
agency was key. We worked that out and things started to 
happen.
    Senator Daines. It was not so much TFPA authority issues. 
It was an implementation issue?
    Mr. Hubbard. That is correct. Can we add to TFPA 
authorities and do better and get more done? Sure, we can and 
your bill helps.
    Senator Daines. While it is good news that we see TFPA 
starting to be utilized more, what do you see as the major 
barriers that prevented TFPA from being fully utilized say over 
the last decade?
    Mr. Hubbard. I would say first of all it was that 
connection that people had different expectations. When they 
could not meet those expectations, they would walk away from 
the process and think it was not very workable. It was not very 
workable.
    When we finally sat down together and said, what is going 
on and what can we do to fix it, that is when the training 
sessions came and the connections started to be made. Now that 
those connections have been made and projects are being 
implemented, we are learning lessons.
    I think we have more to offer in terms of what we can use 
in terms of authorities to help us get the work done.
    Senator Daines. Ms. Lankford, I want to shift over to you 
and discuss the type of environmental work necessary for forest 
projects that also have Federal nexus. Would you say that 
tribes take protecting the environment under NEPA seriously?
    Ms. Lankford. Yes, we have taken it seriously for probably 
about 20 to 25 years when we started doing the NEPA process. It 
seems to get easier as we go along. At first, there was a fight 
between each discipline within the tribal organization, but we 
have learned how to work through that because it is not about 
us, it is about the balance, about coordination and about 
making sure it is right for our homeland.
    Senator Daines. Would you mind sharing your thoughts on 
NEPA completed by the Federal Government compared to NEPA 
completed by tribes?
    Ms. Lankford. I do not know too much about the Federal 
process but I know it is daunting. You have agencies with 
disciplines under them and they have to work through that 
process. I do not even know how they get anything done to tell 
you the truth, even though I do not know much about it.
    I know we were not going to model our program after that 
because we know how to get it done. We have to work together. 
You cannot continue to fight between agencies and try to get 
things done for the American people. It just does not work.
    Senator Daines. How does developing more around the way you 
have worked your environmental reviews compare to the way the 
Federal Government completes NEPA based on your own experience?
    Ms. Lankford. I do not know if I can make that comparison 
because I really do not know enough. If my forest manager was 
here, he probably could answer that. Maybe Mr. Nicholson can. I 
apologize.
    Senator Daines. Compare the amount of time it takes to get 
through your process versus the time it takes in the Federal 
process.
    Ms. Lankford. For our process, it might take up to a year 
and a half or maybe a little longer but there are a lot of 
things you have to weigh in order to get to an end process. It 
is not just a few people talking; it is many disciplines.
    Senator Daines. Mr. Nicholson, do you have a thought on 
that too?
    Mr. Nicholson. Our Land and Property Director is here. I 
would like to let him step in answer that question.
    Mr. Desautel. My name is Cody Desautel. I am the Natural 
Resource Director for the Colville Tribe.
    The NEPA processes are exactly the same. We go through the 
exact same process as the Federal folks but our internal team 
is able to get through projects faster because one, we do so 
many and two, because those folks work cooperatively together, 
like Carole said, to do what is best for the landscape and what 
is best from an ecological standpoint.
    We do not necessarily take a litigation approach to it. I 
think that is maybe the best way to describe the way the 
Federal NEPA process goes. They try to develop a document that 
is defendable in court whereas we are trying to actually 
evaluate the environmental impacts and how that will affect the 
tribal people versus what the legal litigation risk is.
    Senator Daines. Thank you.
    Mr. Nicholson, can you share an example of the Colville 
Tribe's working with Federal agencies on forest health projects 
and how giving the tribes more authority and flexibility could 
have improved those projects?
    Mr. Nicholson. Absolutely. The two TFPA projects we were 
working on that both burned in the fire we had last year, if 
those projects had been completed, we may not have had as bad a 
fire or that landscape may have been much more resilient and 
able to handle that fire.
    We believe your legislation will help strengthen our 
ability to get these things done through TFPA projects and the 
ability to 638 some of the responsibilities.
    Senator Daines. Mr. Chairman, thank you for allowing me to 
going over. This is all great information to hear. These are 
reasons why other provisions of the Tribal Forest Participation 
and Protection Act establish a move toward helping get more 
projects done faster, using tribal authorities, while at the 
same time and very importantly upholding environmental 
safeguards.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Daines.
    Mr. Black, the Indian Health Forest Management Assessment 
Team, the group of experts tasked by the Intertribal Timber 
Council to review the status of tribal forests, released a 
report regarding the 2015 fire season and the conclusions 
reached by the team about the Interior Department's new Risk 
Based Wildland Fire Management Funding Allocation Model.
    They concluded, ``No information has been provided to 
tribes about the consequences of the model and the BIA and 
several other agencies are opposing the Bureau of Land 
Management's efforts to finalize the model.''
    Despite this Committee's repeated requests for information 
about the model, nothing has been forthcoming from the 
Department. Has the Indian Forest Management Assessment Team 
correctly characterized the BIA's opposition to the department 
model? Can you explain a bit about the concerns the BIA may 
have regarding the model?
    Mr. Black. Let me say myself personally and Acting 
Assistant Secretary Larry Roberts are both involved and engaged 
in this process. We are working with the department to ensure 
that a number of the tribal concerns presented to us, as well 
as our own concerns regarding the components of any formula for 
distribution, fully address the tribal needs, the cultural and 
economic impacts of any formula in the distribution for fire 
would have.
    We are currently in that process and are working with the 
department as well as the Interagency Fire Executive Council 
within the department to come together and look at the 
different components of the formula. We are currently in the 
process of addressing that. We have not reached a final 
conclusion yet.
    The Chairman. As I said in my opening statement and to 
include it in the record, Intertribal Timber Council Board 
Member Nicholson is here on the witness panel today. He wrote 
to Secretary Jewel in December 2015 regarding concerns about 
the policies. I think you called them deeply flawed in the 
letter.
    The Council further went on to state, ``The model is based 
upon a set of values that are severely biased to favor BLM 
assets and acreage at the expense of bureaus and tribes.'' 
Correct me if I am not saying this correctly.
    ''The values being used have little or no relationship to 
current and future risk from wildfires and fail to account for 
Federal trust responsibilities and fiduciary obligations to 
protect the trust corpus of Indian beneficiaries.''
    In light of this, how is the Department of Interior 
addressing these concerns about this risk based wildland fire 
management funding allocation model?
    Mr. Black. As I stated earlier, we are fully engaged with 
this. The Interagency Fire Executive Council has been working 
over the past two to three months on all the components of the 
formula, taking into account the concerns of ITC and the other 
tribes engaged to make sure the values important to the tribes 
and that really address their concerns are being included.
    The Chairman. What would happen today? If there was a fire 
today, how would the department protect tribal trust assets 
versus other competing priorities under the new model?
    Mr. Black. Right now, the model has not been implemented. 
We would address any current fire based on severity, priority 
of any geographical region, just as we have in the past. Right 
now our tribal trust lands are always going to be a priority 
due to our trust responsibility.
    The Chairman. Following up on that letter from December 
2015, the Secretarial Order states, ``protecting, conserving 
and restoring the health of the sage brush ecosystem and in 
particular, the Greater Sage Grouse habitat while maintaining 
safe and efficient operations is a critical fire management 
priority for the department. Allocation of fire management 
resources and assets before, during and after wildland fire 
incidents will reflect this priority as well as investments 
related to restoration activities.''
    The Order states that this effort will include enhanced use 
of veteran fire crews, among other assets, adds the Assistant 
Secretary of Indian Affairs as part of the Rangeland Fire Task 
Force established by the Order.
    The Order, at best, I think makes the Sage Grouse first 
among equals in terms of priority for firefighter funding and 
assets. At worst, it appears to prioritize the protection of 
Sage Grouse over many other vital priorities.
    I guess the question is, will the BIA and the Department of 
Interior actually divert critical resources such as veteran 
fire crews away from tribal lands and communities to protect 
Sage Grouse habitat pursuant to that Order? Is that what this 
says?
    Mr. Black. I do not believe that is exactly what that would 
say, Senator. Again, I think we would be looking at the 
severity of any fire, the priorities of our resources and the 
effects on any communities, protection of life, safety and 
property. All of those things would factor into any decision to 
where the resources would be distributed.
    The Chairman. Mr. Nicholson, are you aware BIA has its own 
Wildland Fire Management Program with assets and staff to 
address and respond to the threat of wildfires on tribal lands 
and during such emergencies, all resources are often called 
upon to respond as needed?
    Mr. Nicholson. The BIA is on our reservation and we have a 
pretty good team that fights fire on our reservation. They are 
pretty quick.
    The Chairman. Have you seen examples where the BIA assets 
have actually been pulled away from existing wildfires on 
tribal lands to fight fires on non-tribal lands because as you 
said, they are there and come pretty quickly?
    If there is a push, have you seen such situations where 
things have been pulled away and what happened with tribal 
resources?
    Mr. Nicholson. Last year, we did see some resources leave 
the biggest fire we have ever had on our reservation and go to 
protect second homes at Lake Chelan. I think that was very 
frustrating for everyone at home to see that happen. I do not 
know if that was necessarily BIA resources. I think that was 
from the whole team.
    The Chairman. According to the Indian Forest Management 
Assessment Team regarding the fire on the Colville Reservation, 
it says ``It will take most of two years to salvage 30 percent 
of the total burned timber and the 550 million board feet of 
burned timber remaining will not be worth much.''
    According to the report ``Seventy percent of the burned 
timber essentially will not make to market.'' The team 
recommended establishment of a rapid reaction fund for post 
fire salvage and restoration activities for the tribes impacted 
by the wildfires.''
    How would such a fund benefit the tribal and even non-
tribal economies including loggers, forest product 
infrastructure, sawmills and anyone else impacted by the 
wildfires? What do you think of that?
    Mr. Nicholson. I think it would help us get the resources 
to the mills much faster if we had a fund we can fall back on 
to do the studies, to make sure we are not doing anything wrong 
and to work with the other agencies.
    The BIA did a good job helping us get the salvage sales out 
the door. They definitely were not the bottleneck at that time. 
I think one of our bottlenecks was our capacity. Anytime you 
add all the salvage sales we were trying to do, we did not have 
enough loggers, truckers or the infrastructure to get all the 
logs out of the forest.
    Unfortunately, last year, many fires were happening at the 
same time. Many reservations and others were trying to get the 
same limited resources to get their salvaged logs to mills.
    The Chairman. I appreciate all of you being here to 
testify, share your thoughts and ideas. The hearing record will 
be open for two weeks and members of the Committee may have 
additional written questions. If you receive those, I would 
appreciate it if you could get your answers back to us very 
quickly.
    Thank you very much again to each of you for being here 
today.
    This hearing is adjourned.
    [Whereupon, at 3:35 p.m., the Committee was adjourned.]

                            A P P E N D I X

 Prepared Statement of Dee Randall, Forest Manager, San Carlos Apache 
                                 Tribe
    My name is Dee Randall. I am the Forest Manager for the San Carlos 
Apache Tribe (``Tribe''). Thank you for the opportunity to testify 
before the Senate Indian Affairs Committee on this very important 
topic.
    The San Carlos Apache Reservation covers approximately 1.8 million 
acres of land in Arizona, with over 950,000forested acres. Our 
ponderosa pine forests and woodlands are an important part of San 
Carlos' cultural traditions by providing the habitat for wildlife, 
water and numerous medicinal and ceremonial plants. The forests also 
play a vital role in the economic health of the Reservation through 
timber harvest and other commercial activity.
    The Tribe began contracting Forest Management in 1992, and Fire 
Prevention and Fire Use in 1998 from the Bureau of Indian affairs under 
PL 10-638. The Bureau of Indian Affairs has maintained responsibility 
for Fire Suppression.
    The Tribe manages our resources as close to the natural ecological 
process as possible. With direction from our Elders Council, the Tribe 
has developed Four Traditional Guiding Principles used to manage our 
natural resources, based on Tribal Ecological Knowledge (``TEK''), 
which stems from Apache knowledge, experience, and observation of our 
living treasures. These principles include respecting all aspects of 
the natural world and acting to ensure the long-term health of the 
natural world. Protecting the long-term health of our forests is 
vitally important to achieving these goals.
    Most importantly, this is also our home. However, our home is being 
neglected. The lack of resources devoted to tribal forests has created 
an environment where effective forest management and a robust, rapid 
response to wildfire are unfeasible. The current system of funding 
wildfire suppression and prevention is inverted and misguided. Year 
after year, tribal forest managers and federal land management agencies 
are forced to fight more intense and longer wildfire seasons. The 
current system of funding these disasters forces federal agencies to 
drain critical funding that should be dedicated to preventing wildfires 
and maintaining healthy forests. This creates a vicious circle; without 
proper funding for fire prevention activities, the forests are more and 
more vulnerable to catastrophic wildfires in the future.
Wallow Fire
    The 2011 Wallow Fire illustrates the inadequate and 
disproportionate response to wildfires on tribal lands. The fire began 
in the Bear Wallow Wilderness area by an abandoned campfire. The U.S. 
Forest Service manages the Wilderness, and the Incident Management Team 
refused to order the firefighters needed to prepare the most defensible 
containment line, close to the reservation boundary. Firefighters were 
finally ordered once the fire came onto the reservation. By that time 
it was too late to prepare the best line of defense, forcing 
firefighters to back off for miles to the next defendable ridgeline. 
High-value commercial forest and Mexican Spotted Owl habitat were 
unnecessarily destroyed.
    The Wallow Fire injured 16 people and cost the Federal Government 
$79 million to contain. Federal restoration funding for the Wallow fire 
amounted to approximately $39 million for the U.S. Forest Service, 
while the Tribe received a mere $14,000. It is unacceptable that tribal 
forests are treated differently and at a disadvantage compared to other 
federal lands.
Funding Disparities
    Tribal forests are significantly underfunded when compared to other 
federal lands. Inadequate funding hinders the Tribe's ability to 
assemble a local Incident Management Team to manage fires on Tribal 
lands.
    Tribes are often criticized for not providing their ``fair share'' 
of personnel and funding to interagency efforts such as Incident 
Management Teams and dispatch centers. Cooperating agencies do not 
realize that underfunding leaves the Tribe stretched thin just trying 
to manage their own lands. A true fair share would be a very a small 
contribution if the relative funding allocation between agencies was 
used to calculate Tribe's proportion of fair share.
    The 2013 Indian Forest Management Assessment Team (IFMAT) III 
Report (the statutorily required (PL 101-630, Sec. 312) decadal 
independent review on tribal forests and forestry) found that 
chronically insufficient funding and understaffing threatens tribal 
forests and communities. The IFMAT III Report notes, ``Indian forests 
are receiving much less forest management funding per acre than 
adjacent forest land owners.'' BIA allocations to tribes average $2.82/
acre, while U.S. Forest Service lands receive three times the amount 
per acre ($8.57/acre) and state forests in the western U.S. average 
seven times the amount per acre than tribal forests ($20.46/acre). In 
addition to greatly reducing wildfire hazard on reservations, tribal 
land managers have seen forest thinning treatments result in increased 
water yields despite the current extreme drought situation. The Tribe 
supports the Report's recommendation for a $100 million increase in 
funding for tribal forests to achieve parity with other federal 
forestry programs.
    In addition, the current system for budgeting for wildfires is 
costing taxpayers, and comes at the expense of preventing wildfires and 
managing forests. The result in the repeated destruction of tribal 
forests. Under the current system, federal land management agencies 
must borrow from non-fire accounts when fire suppression costs exceed 
annual budgets. This practice of ``fire borrowing'' prevents tribal 
forest managers and federal land agencies from doing needed hazardous 
fuels removal or timber harvests, which in turn create an environment 
ripe for catastrophic fires.
    In the mid 1980s, 70 percent of the Forest Service's budget was 
dedicated to managing the national forests--thinning, timber 
harvesting, and removing hazardous fuels, all of which helped prevent 
disastrous wildfires. Today, only 30 percent of the budget is spent on 
these activities.
Staffing/Southwest Fireland Program
    Interagency coordination is not adequately addressing firefighting 
or forest management staffing needs, on or off the reservation. The 
Southwest Wildland Fire Fighter (SWFF) Program is one of the largest 
firefighter programs in the country, covering Arizona, New Mexico, the 
Oklahoma panhandle and western Texas. SWFF activities represent a 
cooperative effort between the Bureau of Indian Affairs (BIA), Bureau 
of Land Management, Fish and Wildlife Service, National Park Service, 
and US Forest Service (USFS). SWFF crews are managed by the Southwest 
Coordination Center (SWCC) and the National Interagency Coordination 
Center (NICC).
    Wildfire Management (WFM) appropriations are funded in the annual 
Interior, Environment, and Related Agencies appropriations bill. USFS 
and the Department of the Interior (DOI) are the primary supervisory 
agencies receiving WFM appropriations. USFS traditionally carries out 
wildfire response in national forests and national grasslands, and DOI 
traditionally carries out wildfire response in national parks, wildlife 
refuges and preserves, and Indian reservations, and other public lands. 
A majority of WFM appropriations goes to the Forest Service, receiving 
on average 75 percent of total WFM appropriations.
    Three major subaccounts receive the bulk of the appropriations: 
preparedness, suppression, and hazardous fuels reduction. Funding for 
firefighting equipment and supplies, as well as personnel to manage the 
SWFF Program, is drawn from Preparedness funding. Training of SWFF 
personnel is funded entirely through the Suppression Account. While 
budgets for management, training and equipping SWFF crews are being cut 
nationally and across the board, these cuts disproportionately harm the 
SWFF Program and the tribal communities that it serves.
    Families living on the San Carlos Apache Reservation rely heavily 
on the jobs provided by the SWFF. The San Carlos Apache Tribe has an 
unemployment rate of approximately 70 percent in a community of 
approximately 10,000 people. In 2012, there were 347 firefighters from 
San Carlos dispatched on SWFF crews, bringing home $1.1 million in 
income to our community. In addition to firefighter and support staff 
salaries, these crews supported local food vendors and other service 
providers, bringing in approximately $25,000. These are significant and 
vital contributions to the economy of our community.
    Historically, 600 firefighters from San Carlos were trained to 
respond to fires across the region as part of Interagency Hotshot 
crews. Funding cuts in the last decade have brought that number down to 
approximately 50 trained personnel from San Carlos. Budget cuts allow 
for only short-term employment contracts consisting of 13 pay periods 
per season. It is nearly impossible to train and retain professional 
firefighters under these circumstances, and our tribal forests are 
suffering due to an inability to retain quality first responders. 
Positions are also being left unfilled across Indian country. The Tribe 
has been without a qualified local fire commander for years, hampering 
our ability to react to wildfire situations quickly and efficiently.
    The Federal Government has an obligation to maintain funding for 
our SWFF Program in order to meet its trust responsibilities. While 
overall fire budgets are shrinking, we are already funded significantly 
and shockingly less than our neighboring federal land management 
neighbors and partners. The current low funding levels that we are now 
experiencing already render maintaining our SWFF Program precarious at 
best, and make maintaining firefighter safety a challenge. Further cuts 
put our firefighters at real risk in an already dangerous job, but make 
maintaining our SWFF Program impossible.
    The IFMAT III Report acknowledges that 800 additional BIA Forestry 
positions are needed, and essential existing positions are going 
unfilled. The Tribe supports the $12.7 million increase proposed in the 
Report to create a program to attract, train, and retain qualified 
firefighters and forestry staff with BIA Forestry Programs.
    Additionally, insufficient personnel constrain BIA Forestry's 
ability to process the annual timber harvest levels set by tribes. In 
FY 2014, tribal timber harvest benefits were 60 percent below what 
should have been realized, costing tribes $41 million in lost revenue 
and a loss of over 15,000 jobs. Harvest targets are not being met, 
tribal forest health is suffering, and economic opportunities are being 
lost throughout Indian Country.
Forest Management/Hazardous Fuels Reduction
    Resiliency and culturally competent management practices must be at 
the forefront of efforts to protect tribal forests. At the same time, 
we must prioritize investments in precommercial thinning and hazardous 
fuels reduction operations. Such functions will keep tribal forests 
healthy and resilient, and will prevent wildfires and associated 
environmental and economic consequences.
    The BIA funds project work for thinning excess small trees while 
the Interior Department--through the WFM--funds hazardous fuels 
treatments which reduce both dead and live fuels. However, both the BIA 
funding for Fuels Management and the Interior Department's WFM 
appropriation are insufficient to reduce the Department's fuel backlog 
and allow for sound fire suppression efforts. Interior's Office of 
Wildland Fire--Fuels Management Program suffered significant budget 
cuts in FY11, which have not been recovered. The program must be 
restored to the FY10 level of $206 million to reduce future costs of 
suppression and allow tribes to engage in proactive fuels and forest 
health projects.
Road and Access Issues
    Frequently fire crews are unable to access fires due to a lack of 
usable roads within tribal forests. Federal appropriations for the BIA 
Road Maintenance Program have averaged only $24.3 million annually for 
the last 30 years; an amount wholly inadequate to properly maintain 
29,500 miles of BIA System roads, 17,950 miles of Tribally-owned roads 
and 930 BIA- and Tribally-owned bridges. Tribes across the country face 
chronic underfunding for roads and bridging, situations that create 
life-threatening conditions for first responders, firefighters, and 
those in the path of major fires.
Recommendations to Improve Tribal Forests
    To address the shortfalls and concerns highlighted above, the Tribe 
supports the following existing federal legislative proposals.
Wildfire Disaster Funding Act
    The Tribe joins the Intertribal Timber Council (ITC) in support of 
the Wildfire Disaster Funding Act (S. 235 and H.R. 167) to correct the 
current imbalance in funding wildfire suppression, which impedes 
funding for fire prevention and forest management.
    To help restore and protect funding for fire prevention and forest 
management, Rep. Mike Simpson (RID) and Senator Ron Wyden (DOR) 
introduced the Wildfire Disaster Funding Act (H.R. 167 and S. 235 
respectively). These bills would treat the most disastrous wildfires--
which make up only 1 percent of fires, but 30 percent of the fire 
suppression costs--similar to other natural disasters such as floods, 
tornados, and hurricanes. The Federal Emergency Management Agency 
(FEMA) addresses these disasters pursuant to the Balanced Budget and 
Emergency Deficit Control Act of 1985. H.R. 167 has 147 bipartisan 
cosponsors. S. 235 has 21 bipartisan cosponsors. While I realize that 
S. 235 has not been referred to the Senate Committee on Indian Affairs, 
I urge all Members of the Committee to cosponsor and help move this 
important bill.
Full Implementation of the Tribal Forest Protection Act
    The Tribe joins the ITC in supporting the full implementation of 
the Tribal Forest Protection Act (TFPA) (P.L.108-278). The TFPA 
authorizes the Secretaries of Agriculture and Interior to give special 
consideration to triballyproposed Stewardship Contracting or other 
projects on Forest Service or BLM land bordering or adjacent to Indian 
trust land to protect the Indian trust resources from fire, disease, or 
other threat coming off of that Forest Service or BLM land. Congress 
enacted the TFPA in 2004. However, the Administration is only recently 
beginning to truly implement the provisions. I urge the Committee to 
increase oversight of the TFPA and to work with the Administration to 
ensure that this important law meets the stated goal of empowering 
tribal forest managers to protect nearby federal forest lands, which 
will in turn protect precious tribal trust resources.
Resilient Federal Forests Act
    The Tribe also supports provisions in H.R. 2647, the Resilient 
Federal Forests Act, which passed the House and has been referred to 
the Senate Committee on Agriculture. Title VII of the bill addresses 
tribal forestry needs by amending TFPA and creating a tribal forest 
management demonstration project. The bill also amends Section 305 of 
the National Indian Forest Resources Management Act (25 U.S.C. 3104) to 
create a system whereby tribes can request that certain Federal forest 
land be treated as Indian forest land for the purposes of planning and 
conducting forest land management activities. The common sense 
proposals included in Title VII will empower tribal forest managers, 
and protect tribal trust resources. The Tribe also supports S.3014, the 
Tribal Forestry Participation and Protection Act. Among other 
beneficial provisions, the legislation authorizes the Secretaries of 
the Interior and Agriculture to treat Federal forest land as Indian 
forest land for the sole purpose of expediting forest health projects 
on federal lands that have a direct connection to the tribe. This would 
allow for more streamlined resource management across tribal and non-
tribal forests. I urge the Committee to advance these measures either 
as a separate stand-alone package or as part of larger federal forest 
legislation that is scheduled to move this year.
    If enacted, all of the above referenced federal proposals would 
greatly improve funding methods nationally, help address the 
disparities in funding tribal forests, and better empower tribal 
governments to manage our forests.
Conclusion
    The Tribe and the Forest Service share a common vision of creating 
a healthy forest. The Tribe is surround by Forest Service land and 
``The vision of 4FRI (4 Forest Restoration Initiative, a federally 
funded Restoration project) is restored forest ecosystems that support 
natural fire regimes, functioning populations of native plants and 
animals, and forests that pose little threat of destructive wildfire to 
thriving forest communities, as well as support sustainable forest 
industries that strengthen local economies while conserving natural 
resources and aesthetic values''. Our original homelands are now part 
of Coconino, Tonto, Apache-Stigraves and Coronado National Forest. The 
four-strand barbed wire fence will not hold back wildfires, rain, 
insect and dieses or other pathogens. We need to work together for a 
healthy forest watershed for future generations.
                                 ______
                                 
Prepared Statement of Lydia Weiss, Director of Government Relations for 
                     Lands, The Wilderness Society
    Thank you for the opportunity to testify on S. 3014, the Tribal 
Forestry Protection Act, by Senator Daines. On behalf of our 500,000 
members and supporters, we offer the following testimony on the 
legislation.
    S. 3014 requires significant modification in order to ensure that 
it fulfills its purpose of protecting Tribal resources, furthering 
restoration of national forest land adjacent to Tribal land, and not 
inadvertently affecting other uses of national forests. Necessary 
improvements include:

  <bullet> Eliminating or modifying the ``purposes'' section which 
        emphasizes Federal land management, not protection of Tribal 
        land and resources.

  <bullet> Clarifying the geographic scope of national forest land 
        affected by the legislation. The introduced bill covers ``a 
        geographic area that presents a feature or involves 
        circumstances principally relevant to that Indian tribe.'' This 
        language is incredibly broad and ambiguous.

  <bullet> Requiring that forest management carried out under the bill:

          -- be focused on restoration of national forest land, as 
        defined in 36 CFR 219.19;

          --retain old growth and large trees that further fire 
        resiliency;

          --be based on the best available science;

          -- not construct permanent roads and decommission permanent 
        roads within three years.

  <bullet> Clarifying that the Secretary of Agriculture and Secretary 
        of the Interior retain the sole authority to ensure compliance 
        with Federal environmental laws.

  <bullet> Clarifying that the Forest Service administrative objection 
        process applies to projects under the Act.

  <bullet> Clarifying that the Act does not affect recreational use of 
        public land.

  <bullet> Clarifying section 4, which is ambiguous, and difficult to 
        comprehend. This will include clarifying specifically which 
        authority may be delegated to a Tribe, and which authorities 
        may not. The authority to ensure compliance with Federal 
        environmental law, and manage activities not related to forest 
        restoration may not be delegated. This section requires 
        significant sideboards.

    We appreciate your consideration of these comments. Thank you again 
for the opportunity to testify.
                                 ______
                                 
          Prepared Statement of the Lake County Commissioners
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                                      Crow Tribe of Indians
                                                       May 16, 2016

Dear Senator Daines:

    I am writing, on behalf of the Crow Tribe, to express our support 
for the Tribal Forestry Participation and Protection Act of 2016 (the 
``Act''). The Act appears to present an improvement over existing 
federal legislation, which would more than likely present a ``win-win'' 
situation for all parties involved in the administration and management 
of tribal and federal forests by streamlining the process, providing 
clear deadlines for approval and denials of tribal proposals, and 
overall providing additional opportunities to tribes interested in 
managing forests to which they are culturally and historically 
connected.
    The Crow Indian Reservation, located in southeastern Montana 
between Billings and Sheridan, Wyoming, covers an area of over 
2,226,000 acres. The Tribe, in conjunction with the Bureau of Indian 
Affairs (BIA), cooperatively manages approximately 27,395 acres of 
managed forestland, 19,627 acres of woodlands, and over 60,000 acres of 
tribally reserved forest.
    The Crow Tribe knows that tribal management of tribal forests is 
not only best practice, but an important expression of our tribal self-
determination. It enhances our ability to stimulate the local tribal 
economy and provide employment opportunities, and income, for the Tribe 
as well as individual tribal members. The Act serves to provide 
additional opportunities to perform the above by authorizing tribal 
contracts with the federal government to manage federal forests within 
their former homelands as tribal forests.
    As you are likely aware, according to the 2013 Indian Forest 
Management Assessment Team Report to Congress, Tribes have proven they 
are more capable of carrying out active forest management than their 
similarly situated federal counterparts. Specifically, the report 
indicated that Tribes were able to accomplish more, on their forests, 
with far less funding, than other federal managers, even while 
complying with the same federal laws that national forests are 
currently subject to.
    As such, the Crow Tribe is happy to send this letter in support of 
the Tribal Forestry Participation and Protection Act of 2016.
        Sincerely,
                               Darrin Old Coyote, Chairman.
                                 ______
                                 
    Tribal Council of the Confederated Salish and Kootenai 
                                                     Tribes
                                                        May 5, 2016

Dear Senator Daines:

    I write on behalf of the Tribal Council of the Confederated Salish 
and Kootenai Tribes in support of the Tribal Forestry Participation and 
Protection Act of 2016. As you know the Tribes manage forest resources 
on the Flathead Indian Reservation, along with many programs formerly 
operated by the United States. The Tribes promote keeping Indian 
forested land and nearby Federal forest land healthy by fostering 
greater cooperation between the Tribes and the Departments of 
Agriculture and Interior.
    The proposed Tribal Forestry Participation and Protection Act of 
2016 will provide additional opportunity for the Confederated Salish 
and Kootenai Tribes to manage culturally and geographically related 
Forest Service lands previously ceded by Treaty with the United States 
and to foster greater cooperation between the Tribes and the 
Departments of Agriculture and Interior. We understand there are some 
additional and fairly minor definitional changes being contemplated. As 
we understand those changes, we are comfortable with them.
    We appreciate your efforts in supporting this legislation and look 
forward to working with you and your colleagues to ensure its swift 
passage.
        Sincerely,
                    Vernon Finley, Tribal Council Chairman.
                                 ______
                                 
                                 Intertribal Timber Council
                                                       May 17, 2016

Dear Senator Daines:

    On the behalf of the Intertribal Timber Council (ITC), I am writing 
to express the ITC's support for your legislation, the ``Tribal 
Forestry Participation and Protection Act of 2016.'' This legislation 
will improve the ability of Indian tribes and the United States to 
protect tribal trust forest assets by establishing more certainty in 
the consideration and implementation of the 2004 Tribal Forest 
Protection Act (TFPA). Your bill will also allow tribes to more 
effectively participate in the holistic, active and landscape-based 
concepts that are increasingly guiding today's forest management 
activities. And your bill will enable tribes to directly conduct 
approved TFPA projects. All of these authorities are to be exercised 
working with and through the Secretaries of Agriculture and Interior.
    Within the family of federal forests, and perhaps within the family 
of all American governmental forests, Indian forestry brings unique 
perspectives and capacities to forest management, and particularly the 
management of federal forests. Our forests are managed by and for our 
tribes, and our long history and experience of living in concert with 
the natural landscape informs and guides how we manage our forests both 
for today and far into the future. Indian forests are held in trust for 
our benefit by the United States, requiring the highest standard of 
fiduciary care by our federal trustee while also placing our forests 
within the broad scope of federal law. Pursuant to statute, tribal 
forests are also the only federal forests, and perhaps the only 
governmental forests in the United States, to be the subject of 
mandatory decadal independent reviews and assessments.
    Management of Indian forests today is principally conducted under 
the National Indian Forest Resources Management Act of 1990, the most 
modern and flexible federal forest management law. In addition to its 
management provisions, the law directs the Secretary of the Interior to 
provide for the conduct of independent reviews and assessments of 
Indian forests and their management every ten years. To date, three 
Indian Forest Management Assessment Teams (IFMATs) have conducted their 
reviews and issued their reports (IFMAT reports of 1993, 2003 and 
2013). These reports have consistently found that the U.S. underfunds 
and inadequately fulfills its fiduciary obligations for Indian 
forestry, but that tribal forest management nonetheless facilitates 
innovative and integrated forestry practices. The reports further find 
that Indian forestry has the potential to provide models for 
sustainable forestry and resource management, and that the influence 
and techniques of Indian forestry can find application on the federal 
forest estate.
    Senator Daines, your legislation draws upon and enhances these 
unique aspects of Indian forestry. It strengthens the federal trust 
protection of tribal forests by providing tribes a clearer and timelier 
path for addressing fire, health and other concerns on adjacent federal 
forests. It will allow tribes and the Secretaries of Agriculture and 
Interior, working in conjunction on a demonstration basis, to explore 
the potential benefits of applying tribal forest management on adjacent 
federal forests. Your legislation will also help alleviate burdens on 
federal forest managers by enabling tribal governments to apply their 
capabilities in the conduct of Tribal Forest Protection Act projects.
    We believe that, as the concepts and practices of forest management 
broaden across the landscape, the protection and participation your 
legislation affords Indian tribes are sensible and offer new, 
innovative and beneficial opportunities for all parties. We thank you 
for your sponsorship of the Tribal Forestry Protection and 
Participation Act of 2016, and look forward to working with you and 
your Senate colleagues to advance this legislation.
        Sincerely,
                                    Phil Rigdon, President.
                                 ______
                                 
                                            Blackfeet Tribe
                                                       May 16, 2016

Dear Senator Daines:

    The Blackfeet Tribe supports the Tribal Forestry Participation and 
Protection Act which will greatly assist in fostering cooperative 
forestry management and planning on Tribal and Federal forest lands. 
The Tribe appreciates Senator Daines efforts to bring about such 
cooperation which will significantly increase protections for Tribal 
forest lands.
        Sincerely,
                                     Harry Barnes, Chairman

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
